    OFFICE OF INSPECTOR GENERAL
U.S. GENERAL SERVICES ADMINISTRATION




OCTOBER   1, 1998 "" MARCH 1, 1
This report, submitted pursuant to the Inspector General Act of 1978, as
amended, summarizes the activities of the Office of Inspector General (DIG)
for the 6-month reporting period that ended March 31, 1999.

 This semiannual reporting period has been a very productive time for both
the DIG and GSA. We continued to work closely with GSA management to
find ways to increase the efficiency and effectiveness of the Agency's
programs and to ident{fy sound business management and operational
improvements. In our most significant audits, we found that time delays in
the year 2000 conversion for a vital computer system might lead to
inadequate testing of the conversion efforts. We also reported that although
significant improvements have been made in security upgrades at Federal
facilities, GSA still does not have reliable management information for
tracking and reporting on the installed and operational security equipment
inventory. We pointed out the need to reevaluate current policy regarding the
public's access to Federal buildings' blueprints after learning that design
plans are often made available without any restrictive language to safeguard
the plans. Lastly, we reported that data in the new information system
designed to enhance the Agency's ability to manage vacant space in GSA's
building inventory is not accurate. In each case, management has responded
favorably to our reports and is taking steps to address the issues raised.

We continued to offer non-traditional audit services including advisory and
consulting reviews and to assess Agency performance measures for the
Government Peiformance and Results Act.

We identifIed over $347 million in financial recommendations on how funds
could be put to better use and in other program savings. Also, we made
139 referrals for criminal prosecution, civil litigation, and administrative
action. Criminal cases originating from DIG referrals resulted in
6 successful prosecutions. Savings achieved from management decisions on
audit fInancial recommendations, civil settlements, and investigative
recoveries totaled over $356 million.

I want to take this opportunity to thank the GSA Administrator, GSA's senior
managers, and the Congress for their support. I also want to commend the
accomplishments of all DIG employees for their continued professionalism,
dedication, and willingness to accept new challenges.




WILLIAM R. BARTON
Inspector General
April 30, 1999
                                                                  Page

Summary of OIG Performance ............................... v

Executive Summary ....................................... vi

OIG Profile .............................................. 1

Reviews of GSA Programs .................................. 2

Working with the Government Performance and Results Act ....... 15

Procurement Activities .................................... 19

Prevention Activities ...................................... 24

Review of Legislation and Regulations ........................ 28

Statistical Summary of GIG Accomplishments .................. 30

Appendices

Appendix I - Significant Audits from Prior Reports .............. 37

Appendix II - Audit Report Register.......................... .40

Appendix III - Audit Reports over 12 Months Old with Final
 Action Pending ........................................ .49

Appendix IV - Delinquent Debts. . ........................... 57

Appendix V - Reporting Requirements ........................ 58



This semiannual report may be accessed on the Internet at the
following address: http://www.gsa.gov/staffllg/




                                              Office of Inspector General iii
October 1, 1998 - March 31,1999

Total financial recommendations                               $347,482,649

These include:

e   Recommendations that funds be put to better use           $342,565,274

• Questioned costs                                              $4,917,375

Audit reports issued                                                91

Referrals for criminal prosecution, civil
litigation, and administrative action                               139

Management decisions agreeing with audit
recommendations, civil settlements, and
court-ordered and investigative recoveries                    $356,817,636

Indictments and informations on criminal referrals                   6

Cases accepted for criminal prosecution                             13

Cases accepted for civil action                                      4

Successful criminal prosecutions                                     6

Civil settlements                                                    4

Contractors debarred                                                 3

Employee actions taken on administrative
referrals involving GSA employees                                    8




                                                 Office of Inspector General v
                                       During this period, we offered our traditional services, including program
                                       evaluations, contract and financial auditing, management control reviews,
                                       investigative coverage, and litigation support in contract claims, civil fraud
                                       and enforcement actions, and criminal prosecutions. In addition, we
                                       provided professional assistance through enhanced consulting services
                                       designed to help management address potentially serious deficiencies or
                                       other concerns.

                                       Program/Operational Reviews

                                       The OIG continued its ongoing reviews of major programs and operations
                                       throughout GSA's various components. We focused on GSA's efforts to
                                       convert its National Electronic Accounting and Reporting system (NEAR)
                                       to be Y2K compliant. The NEAR system is GSA's backbone accounting
                                       and financial information system which provides all GSA components the
                                       management information needed to operate and to ensure fiscal responsi-
              Y2K
                                       bility. We determined that the Agency has experienced conversion delays
                                       that have resulted in compressed testing time frames. This increases the
                                       risk that NEAR may not be adequately tested and could experience
                                       problems in the year 2000. We also noted that GSA has not maintained
                                       test documentation nor used an independent source to review and validate
                                       the tests. Agency management is taking steps to address these issues
                                       (page 2).

                                       We continued our efforts to review GSA's progress in improving the
                                       security of Federal buildings and to correct previously identified problems
                                       with the reporting of security equipment installations and the proper use of
                                       enhancement funding. We found that GSA has substantially enhanced the
                                       security at GSA-controlled facilities since our initial review. However,
                                       problems still remain with the accuracy of installation reporting.
                                       Consequently, management does not have the data necessary to properly
      Security of Federal
                                       administer its overall security enhancement program (page 3). In a related
          buildings                    review, we learned that design plans for building construction and major
                                       renovation projects are too accessible to the general public. These plans
                                       frequently detail structure and interior space. We expressed concern that
                                       free access to these plans could create undue security risks to lives and
                                       property (page 4). Additionally, we conducted a review of security
                                       standards for siting and constructing new and renovated Federal buildings.
                                       We concluded that GSA is applying the enhanced security standards where
                                       possible. However, not enough time has elapsed for the standards to be
                                       applied to all phases of ongoing building projects (page 5).

                                       During this reporting period, we conducted a review of the documentation
                                       used to substantiate the pricing of change orders associated with a new
                                       lease build-out in Washington, D.C. Our review disclosed that over a
                                       3-year period, there were inconsistencies in documentation and
vi Semiannual Report to the Congress
 Change orders on leased     justifications supporting over $15 million in change orders. Overhead fees
  space improvements         and lessor profits were substantially higher than those found in similar GSA
                             lease agreements, and GSA had authorized the change orders without first
                             establishing the source of funds. OIG recommended that GSA management
                             re-emphasize the need for complete and accurate documentation of contract
                             files, and that change orders should not be initiated until the source of
                             funding is firmly established (page 6).

                             In other program reviews, we reported on a wide range of GSA's programs
   Information systems;      and operations. For example, we recommended that the Public Buildings
   management controls       Service information system data be updated to reflect accurate space usage
                             (page 7), and reported that management controls need to be strengthened to
                             ensure the reliability of building financial statements (page 8). Furthermore,
                             our review of vacant space revealed that corrective measures must be taken to
                             ensure the reliability of the information system (page 9).

  Customer satisfaction      Our review of customer satisfaction as it pertains to the use of reimbursable
                             work authorizations found that customers are now more satisfied with
                             services provided. However, there are needs to provide customers with
                             timely billings, as well as a prompt recovery of funds owed to GSA
                             (page 9). We reviewed regional general and administrative expense details
                             and recommended that GSA management periodically provide data files to
Building income statements   verify the accuracy and completeness of the income statement data (page 10).
     Negotiated leases       We reported that controls over negotiated lease procurements need to be
                             strengthened (page 11), and that improvements were needed in documenting,
                             collecting, depositing and reconciling of proceeds from personal property
   Surplus property sales    sales (page 12). In addition, we reported that customer agencies were unable
                             to obtain information concerning alternative fuel use. We advised
   Alternative fuels usage   management that issues needed to be resolved before reliable alternative fuel
                             purchase information could be obtained (page 13).

                             Working with Government Performance and Results Act

                             In accordance with the Government Performance and Results Act of 1993
                             (GPRA), we performed reviews of selected GSA performance measures and
                             have made preliminary risk assessments of the internal controls over data
                             supporting these performance measures. This period, we reviewed the
                             Interagency Fleet Management System (IFMS) and the overall design and
                             operation of the internal control system over performance measures reported
                             in the Fiscal Year (FY) 1998 Annual Report. We reported that IFMS' per-
                             formance measures do not assess performance in terms of mission accom-
                             plishments, and are not sufficiently expressed in measurable results to be
                             achieved to enahle adequate evaluation. We also reported that, hecause there
                             is no clear understanding of responsibilities for ensuring that performance



                                                                             Office of Inspector General vii
                                         data are verified at the service levels and for GSA overall, the Agency's
                                         ability to collect, process, record, and summarize performance information
                                         and report performance measures in accordance with management's
                                         criteria could be adversely affected. We have also made our services avail-
                                         able to Agency managers in other ways. We have benchmarked with other
                                         Federal agencies and the private sector to identify various best practices
                                         that GSA could use to improve its overall strategic and performance
                                         planning (page 15).

                                         Procurement

                                         An important part of the OlG's work is to provide support to the Agency's
                                         contracting officers and to protect the integrity of GSA's procurement
                                         programs and operations by detecting and preventing fraud, waste, and
                                         abuse. Based on our audit and investigative work this period, the
                                         Government entered into two settlement agreements in which companies
                                         agreed to pay nearly $5 million to resolve potential civil liability under the
                                         False Claims Act. These contractors provided construction equipment and
                                         road clearing and repair equipment. The settlements involved allegations
                                         that they had misrepresented their commercial discount practices in
                                         seeking and performing under GSA contracts in violation of the False
                                         Claims Act and other statutory and contractual provisions (page 19).

                                         We also successfully completed a number of criminal investigations.
                                         These included an investigation that resulted in an individual pleading
                                         guilty to conspiracy and trafficking in stolen telephone access devices. It
                                         was determined that the individual sold stolen calling card numbers to
                                         persons in the United States and abroad, who then used the numbers to
                                         illegally obtain free long distance service (page 20). Other investigations
                                         resulted in convictions involving making false statements in connection
                                         with a GSA contract (page 20), impersonating Federal officials (page 21),
                                         and a double billing scheme on GSA contracts (page 21). Furthermore, we
                                         made recommendations to improve controls when using agency credit
                                         cards for customer service center procurements (page 22). A regional
                                         review of operations at a property management center recommended
                                         improvements in the preventive maintenance program (page 22).

                                         Sumnrmr'Y of Result.,

                                         The OIG made over $347 million in financial recommendations to better
                                         use Government funds, and in other program costs savings; made
                                         139 referrals for criminal prosecution, civil litigation, and administrative
                                         actions; reviewed 140 legislative and regulatory actions; and received
                                         1,551 Hotline calls and letters. This period, we achieved savings from
                                         management decisions on financial recommendations, civil settlements,
                                         and investigative recoveries totaling over $356 million. (See page v for a

viii Semiannual Report to the Congress
summary of this period's performance.) Despite attaining significant
financial results this period, we are extremely concerned about a new trend
where disappointing contract negotiation results are occurring within the
Multiple Award Schedule program. During this period savings realized have
markedly declined from historical experience. The OIG is working closely
with management to determine the causes and explore ways to improve
contract pricing (page 24).




                                                Office of Inspector General ix
The GSA OIG was established on October 1, 1978 as one of the original
12 OIGs created by the Inspector General Act of 1978. The OIG's five
components work together to perform the missions mandated by the
Congress.

The OIG provides nationwide coverage of GSA programs and activities. It
consists of:

$   The Office of Audits, an evaluative unit staffed with auditors and analysts
    who provide comprehensive audit coverage of GSA operations through
    program performance reviews, internal controls assessments, and financial
    and mandated compliance audits. It also conducts external reviews in
    support of GSA contracting officials to ensure fair contract prices and
    adherence to contract terms and conditions. The office has added advisory
    and consulting services to its service offerings.

• The Office of Investigations, an investigative unit that manages a
  nationwide program to prevent and detect illegal and/or improper activities
  involving GSA programs, operations, and personnel.

.. The Office of Counsel to the Inspector General, an in-house legal staff
   that provides legal advice and assistance to all OIG components,
   represents the OIG in litigation arising out of or affecting OIG operations,
   and manages the OrG legislative/regulatory review functions.

.. The Internal Evaluation Staff, an in-house staff that plans and directs
   field office appraisals and conducts internal affairs reviews and
   investigations.

e   The Office of Administration, an in-house staff that provides information
    systems, budgetary, administrative, personnel, and communications
    services.

The OTG is headquartered in Washington, D.C., at GSA's Central Office
building. Field audit and investigations offices are maintained in Boston,
New York, Philadelphia, Atlanta, Chicago, Kansas City, Fort Worth, San
Francisco, and Washington, D.C. Sub-offices are also maintained in Auburn,
Cleveland, and Los Angeles.

As of March 31,1999, our on-board strength was 274 employees. The OIG's
FY 1999 budget was approximately $32 million.




                                                   Office of Inspector General 1
                                      GSA is a central management agency that sets Federal policy in such
                                      areas as Federal procurement, real property management, and
                                      telecommunications. GSA also manages diversified Government
                                      operations involving buildings management, supply facilities, real and
                                      personal property disposal and sales, data processing, and motor vehicle
                                      and travel management. Our audits examine the efficiency, effectiveness,
                                      and integrity of GSA programs and operations, and result in reports to
                                      management. Our internal audits program is designed to facilitate
                                      management's evaluation and improvement of control systems by
                                      identifying areas of vulnerability and providing informational and advisory
                                      services.


                                      We are continuing to review GSA's Year 2000 computer systems
                                      conversion efforts. In two prior audits, we reported that the Agency's
                                      initial planning for conversion was not adequate and conversion schedules
                                      had not been developed. During this 6-month reporting period, we
                                      focused on the Office of the Chief Financial Officer (CFO) efforts in
                                      converting mission-critical systems to effectively operate in the year 2000,
                                      with particular emphasis on the National Electronic Accounting and
                                      Reporting (NEAR) system. This system performs vital functions for the
                                      Agency such as controlling, recording, classifying, and summarizing
                                      financial transactions to meet Federal accounting requirements.

                                      GSA had set an internal deadline for conversion of systems by January 31,
                                      1999. In assessing the status of the NEAR system conversion, we found it
                                      difficult to quantify the CFO's progress because NEAR is a complex
                                      system, consisting of multiple software and hardware components that are
                                      in various stages of conversion, but is nevertheless reported as a single
                                      system. The CFO has experienced conversion delays that have resulted in
                                      compressed testing time frames. Initially, 5 months were allowed for
                                      testing; however, much of that time was consumed by delays. This
                                      increases the risk that the NEAR system may not be adequately tested and
                                      could experience problems in the year 2000.

                                      We also noted that the CFO has not maintained test documentation and has
                                      not used an independent source to review and validate the tests. In
                                      addition, the CFO needs to determine that its data exchanges will operate
                                      correctly and that it develops business continuity and contingency plans to
                                      ensure that vital functions continue in the event that all NEAR system
                                      conversions are not completed on time.




2 Semiannual Report to the Congress
In our December 16, 1998 report, we recommended that the Chief Financial
Officer:

e   Develop measurement tools to monitor and evaluate the progress of
    remaining work.

e   Review and analyze the adequacy of testing performed to date.

• Use an independent validation and verification organization to assess
  conversion and testing efforts.

• Ensure that all data exchanges will operate correctly.

• Complete development of a business continuity and contingency plan.

Management agreed with our recommendations. The report is still in the
resolution process.


On April 19, 1995, a bomb destroyed the Alfred P. Murrah Federal Office
Building in Oklahoma City. This terrorist act resulted in the death of
168 Federal employees and visitors, and significant injuries to hundreds of
individuals. The next day, President Clinton directed the Department of
Justice (DOJ) to assess the vulnerability of Federal office buildings in the
United States, particularly to acts of terrorism and other forms of violence.
The United States Marshals Service coordinated the study, based on its
expertise in court security.

On June 28, 1995, DOJ issued the Vulnerability Assessment of Federal
Facilities Report. DOl's principal recommendation was that, where feasible,
each Federal facility should be brought up to the appropriate minimum
security standards. Depending on the security level and feasibility of
installation, security upgrade countermeasures could include: x-ray screening
of all mail and packages, closed circuit television, perimeter lighting, contract
guards, and magnetometer or x-ray screening at public entrances. Over
$140 million was available to fund the capital costs of security equipment
upgrades alone. GSA allocated the funds to its regions based on specific
countermeasures requested by individual building security committees. GSA
was also tasked with creating a physical security database covering all
Federal office buildings. To accomplish this, GSA designed and
implemented a nationwide automated tracking system called the Building
Security Committee System. Regional offices were responsible for inputting
information into the system and transferring it to headquarters, where the
security information is maintained in a nationwide database.



                                                    Office of Inspector General 3
                                      6'I.c!IRJl6'1f::!   of      Programs




                                      In FY 1997, the OIG reviewed GSA's upgrading of security at Federal
                                      facilities and noted several items of significant concern that we felt
                                      warranted immediate reporting to management. Our reports described
                                      discrepancies in the database used for tracking and reporting the status of
                                      security upgrade countermeasures, such as equipment reported as installed
                                      but found to be either missing or non-operational, equipment installed but
                                      not recorded in the database, and countermeasure descriptions that did not
                                      sufficiently describe what was actually done. We also found counter-
                                      measures completed despite Central Office disapproval, security equip-
                                      ment in storage but with no plan for installation, and security enhancement
                                      funds used for non-security related purposes or not used efficiently.

                                      This year, we agreed to perform a follow-up audit to assess how the
                                      corrective actions were proceeding. In the interim, we issued our final
                                      report on the security upgrade program. The Commissioner, Public
                                      Buildings Service, in response to our reported findings, directed that the
                                      regions certify to the accuracy of the database used to track security
                                      equipment upgrades by October 1998. Our follow-up effort started shortly
                                      thereafter.

                                      We concluded that the security upgrade program has significantly
                                      enhanced the security at GSA-controlled facilities since our initial review.
                                      We did identify a few problems concerning the physical installation of
                                      equipment. Site inspections found some uninstalled or non-operational
                                      countermeasures that had been reported as completed. In addition,
                                      management information is still not reliable despite ongoing corrective
                                      measures. This has occurred because officials have not placed sufficient
                                      emphasis on the need [or accuracy in the security countermeasure tracking
                                      system. Consequently, management still lacks accurate data critical to
                                      administering the security program and assessing regional accomplish-
                                      ments. We also noted instances where regional officials inappropriately
                                      used security enhancement funds.

                                      Since the Agency is in the process of implementing the action plan
                                      pertaining to recommendations contained in the initial program report, our
                                      March 18, 1999 report to the Commissioner, Public Buildings Service did
                                      not include formal recommendations. However, we suggested that Federal
                                      Protective Service Central Office re-emphasizc to regional officials the
                                      importance of GSA's security equipment inventory responsibility.

                                                               Building         Plans
                                      GSA, as the primary landlord and property manager for the Government,
                                      is involved with the construction and major repair and alterations of many
                                      Federal facilities. Integral to such construction work is the development of
                                      design plans, frequently detailing the physical layout of the structure and
                                      interior space.
4 Semiannual Report to the Congress
             of GSA Programs




We initiated this review upon learning that Federal-building blueprints had
been provided to a trust for a municipal revitalization project. The plans
were released without any restrictive language regarding release to third par-
ties or physical safeguarding of the plans. With further research, we learned
that Federal building design plans are, in many cases, available to the general
public through several sources. More disconcerting was the fact that some of
these sources were considering including actual drawings on the Internet.
Clearly, this would present a heightened exposure to physical security risks.

During our audit, a number of questions surfaced which needed to be
addressed:

a   Should GSA provide Federal building design plans to outside parties
    without specific provisions for physically safeguarding the plans?

• Should recipients of the plans be required to agree to any non-disclosure
  requirements?

• To what extent are plans available to the public?

A number of factors and differing opinions by various agency groups exist
with regard to the need to make design plans available to accomplish
necessary work without materially increasing security risks.

We concluded that GSA needs to reevaluate current policy to determine when
public access to plans is a security threat, and decide if policy changes should
be made in light of the Agency's responsibility to safeguard property and
lives in today's environment of more heightened security concerns.

In our December 1, 1998 report, we rccommended that management assess
and update existing policy for dissemination of design plans. Responsive
management action plans were provided for implementing the report
recommendations.

                                           Buildings
In October 1995, following the bombing of the Murrah Federal Building in
Oklahoma City, President Clinton issued an Executive Order that created the
Interagency Security Committee (Committee). Chaired by GSA's
Administrator, the Committee was formed to establish policies for developing
and evaluating security standards for Federal facilities, ensuring compliance
with such standards, and overseeing the implementation of appropriate
security measures in Federal facilities. GSA focused on developing enhanced
security standards for planning, designing, and constructing new buildings,
and for major renovation projects. GSA adopted a draft of the standards in
January ] 997. The Committee approved the enhanced standards, with minor
modifications, in November] 998.

                                                   Office of Inspector Gcncral 5
                                      We conducted a review of security standards for new and renovated
                                      Federal buildings. Our evaluation concluded that GSA is applying the
                                      enhanced security standards where possible; however, not enough time has
                                      elapsed for the standards to be applied to all phases of ongoing building
                                      projects. Since new construction projects take a number of years from the
                                      time the actual need for a building is identified to the actual construction,
                                      current projects were planned prior to the development of the standards.
                                      In addition, most projects currently underway are for border stations,
                                      which are unique buildings exempted from the new standards, and for
                                      courthouses. While courthouse construction would be subject to the
                                      standards, GSA and the Administrative Office of the Courts have agreed,
                                      in a memorandum of understanding, that new courthouses will follow
                                      prearranged protection levels which obviate the need for an individual
                                      threat assessment as prescribed by GSA's standards. Finally, GSA has not
                                      adopted assessment standards for properties under consideration for new
                                      leases of space.

                                      In our March 24, 1999 report, we recommended that the Commissioner,
                                      Public Buildings Service:

                                      • Develop a policy that defines the roles and responsibilities of
                                        individuals involved in implementing the enhanced security standards
                                        for new construction and major renovation projects.

                                      • Create security standards for newly acquired leased space.

                                      The Commissioner agreed with the recommendations in the report. The
                                      report is still in the resolution process.


                                      GSA entered into a lease for a significant amount of space to be occupied
                                      by the Federal Communications Commission (FCC) in a newly
                                      constructed building in Washington, D.C. known as Portals II. As the
                                      space was being customized to meet the needs of FCC, GSA issued a num-
                                      ber of change orders valued at over $15 million as of March 1998. The
                                      OIG initiated a review of these change orders to determine if there was
                                      adequate supporting file documentation to substantiate the basis for the
                                      reasonableness of the negotiated prices.

                                      Our review disclosed that major change order files did not consistently
                                      identify contract records documenting the analysis, actions, and
                                      justifications leading to the change order awards. Overhead fees and
                                      profits added by the lessor to the base costs of the change orders were
                                      substantially higher than those in other GSA lease agreements, and may
                                      not be reasonable for the level of effort necessary to accomplish the task.

6 Semiannual Report to the Congress
However, because these rates were established in the original lease contract it
would be very difficult to renegotiate lower markup percentages. We made
no recommendations on the markups, but did encourage the Agency to make
every effort to contain costs.

Also, GSA had authorized above standard space improvements requested by
FCC without first establishing the source of the funds. In a nearly 3-year
period, GSA incurred costs for above standard improvements, architectural
and engineering services, and interest in excess of $15 million. These costs
were funded through supplemental lease agreements, allowing GSA to
amortize the incurred costs over the lease term, thus increasing total costs to
over $25 million. As a result, the monthly rental payment will increase by
$260,828. Congress has not approved FCC's request for funds that it
considered necessary to prepare the building for occupancy, and GSA agreed
to fund the agency's costs.

As a consequence, GSA will be required to fund the payments using the
Federal Buildings Fund if FCC is unsuccessful in obtaining the
appropriations necessary to cover the higher rent payments in the
supplemental lease agreements. If this occurs, additional burdens will be
placed on the already financially strapped Federal Buildings Fund.

Management indicated this lease was a unique transaction, and that funding
tenant space improvements was legal and prudent under the circumstances.
While this lease does not reflect typical transactions, we pointed out that
regardless of the complexity of a project it is necessary to establish and
document the source of the funds for above standard improvements prior to
initiating the change orders. The report is still in the resolution phase.


The Public Buildings Service (PBS) provides space to Federal agencies. PBS
charges agencies rent, set at commercially comparable rates, in order to
generate revenue and make agencies accountable for the resources they
consume.

While reviewing PBS's information system data as part of an ongoing nation-
wide audit on vacant space, we noted that the GSA supply depot in
Franconia, Virginia reportedly had significant vacant space. Over 578,000
square feet of space was categorized as vacant. Upon physical inspection of
the site, we saw that the space was almost fully occupied, primarily by the
GSA Federal Supply Service (FSS). Officials of both PBS and FSS acknowl-
edged that the information system was incorrect and needed to be updated.




                                                   OHice of Inspector General 7
                                      The impact of this discrepancy is that the FSS is not being billed for all of
                                      its space at the depot, and the PBS is inappropriately subsidizing the depot
                                      program at the expense of the Federal Buildings Fund. Although there is
                                      disagreement over the exact amount of space occupied by FSS, we
                                      estimated that the rent charged is understated by at least $1 million per
                                      year.

                                      In our January 5, 1999 report to the Regional Administrator, we
                                      recommended that the Assistant Regional Administrator of the Public
                                      Buildings Service direct the region to determine the appropriate amount of
                                      rent to be recouped, pursue collection, and correct the data in the
                                      information system. A responsive management action plan was provided
                                      for implementing the report recommendation.

                                      Controls                         Building      (;O.SIS
                                      As GSA continues to redirect its efforts to operate in a more business-like
                                      manner, it has emphasized the importance of managing its real property
                                      asset portfolio by managing costs. Costs can be classified into two general
                                      categories, direct and indirect costs. Direct costs are specifically incurred
                                      for, or benefit, a particular final cost objective or operation. Conversely,
                                      indirect costs, often referred to as general and administrative expenses,
                                      benefit multiple cost objectives.

                                      We reviewed direct building operating costs in one region to determine
                                      whether the controls over the recording and processing of those costs
                                      provide reasonable assurance that they are accurately reported on building
                                      income statements. Our results demonstrate a need to strengthen
                                      management controls to ensure the reliability of building financial
                                      statements. Over 85 percent of the sampled transactions were posted in
                                      the wrong fiscal year, to the wrong account, and/or to the wrong building,
                                      causing the direct costs, as presented on the buildings' financial
                                      statements, to be materially misstated.

                                      Our March 31, 1999 report recommended that the Assistant Regional
                                      Administrator:

                                      • Reaffirm the need for accurate building income statements.

                                      .. Ensure that complete supporting data is provided to the Office of
                                         Finance for building-related transactions.

                                      " Clarify GSA's capitalization policies.

                                      .. Instruct regional personnel to periodically verify and reconcile building
                                         income statement data to supporting documentation.


8 Semiannual Report to the Congress
Management generally agreed with the report recommendations. The report
is still in the resolution process.


GSA acts as a clearinghouse for vacant space, allowing agencies to reLm
unneeded space with short notice. The Agency can then try to backfill this
space with another tenant, dispose of Government-owned property, or
terminate leases. Vacant space has a significant impact on GSA's ability to
maximize revenue. The potential revenue from vacant space was about
$544 million in FY 1998.

GSA has taken action to mitigate the impact of the vacant space by
implementing new initiatives directed toward improving overall asset
management. The Agency is installing a new information system that it
believes will enhance its ability to manage the inventory. It has also
implemented new performance measures and management controls to
improve asset performance.

During our review of vacant space, we noted some issues that walTant
management's attention. We pointed out that the accuracy of the data in the
new information system should be improved. Information was transferred
from the prior systems and much of that inaccurate data has yet to be
corrected. Also, the data elements used in PBS's performance meaSUlY 4'or
non-revenue producing space needs clarification. Regional offices were not
able to trace back to the supporting data used by the national office to
evaluate this measure. Finally, the lines of authority over regional space
inventory should be better defined. Revenue managers and asset managers
depend on other groups to carry out their plans or meet revenue targets. We
found confusion at the regional level as to the responsibilities and authorities
of these managers, which, consequently, made it difficult for them to initiate
change.

Once these issues are addressed, the Agency will be in a better position to
minimize the impact of vacant space on the Federal Buildings Fund.

We issued our report to the Commissioner, Public Buildings Service, on
March 18, 1999. Since PBS is actively pursuing the issues we discussed, our
report did not contain formal recommendations. The Commissioner agreed
and indicated that the region has started corrective action.


In November 1996, GSA introduced a series of initiatives aimed at improving
the process by which it delivers space alteration services to customer agen-
cies. The initiatives offered options on how to have alterations performed,



                                                    Office of Inspector General 9
                                       provided flexibility in obtaining the goods and services necessary to
                                       accomplish alterations, and presented techniques to reduce the
                                       administrative burden while increasing performance. From July 1997 to
                                       March 1998, GSA initiated over 5,000 reimbursable work authorizations
                                       (RWAs) valued at less than $100,000 each, but with a combined value of
                                       about $64 million.

                                       We performed a review and determined that the Agency did not have a
                                       reliable mechanism to measure customers' satisfaction with the RWA
                                       process. Therefore, we surveyed these customers to see how satisfied they
                                       were with the timeliness, quality, cost, and ease of doing business with
                                       GSA. We concluded that GSA has improved its focus on the customer and
                                       that customers are generally satisfied with the process. However,
                                       customers felt that billing was either untimely or inaccurate. Since
                                       anticipated management support systems have not evolved and program
                                       performance cannot be measured accurately, management may not be able
                                       to readily identify program successes or weaknesses.

                                       In our March 24, 1999 report, we recommended that the Commissioner,
                                       Public Buildings Service:

                                       • Re-evaluate the program performance measures and correct design
                                         deficiencies for those measures to be retained, or develop alternative
                                         performance measures.

                                       " Define and standardize the core data requirements for effective program
                                         management and oversight.

                                       e   Provide customers with timely and accurate billings and ensure timely
                                           recovery of funds owed to GSA.

                                       The Commissioner agreed with the recommendations in the report. The
                                       report is still in the resolution process.


                                       Prudent business practice dictates that managers have the necessary tools
                                       to permit periodic analysis of identifiable expenditures supporting their
                                       financial statements, including general and administrative (G&A) expense
                                       details. It is particularly important for managers to analyze G&A expenses
                                       because, by definition, these costs are not directly related to producing a
                                       product or service. As such, G&A expenses may be harder for managers
                                       to control.

                                       GSA recognizes the importance of having accurate financial data for
                                       business decisions. However, the Agency's accounting system does not
                                       have the capability to readily or easily provide a means for identifying the
10 Semiannual Report to the Congress
    .""'.",VIIQ'   of




detail of transactions that comprise the regional G&A balances on the income
statements for individual buildings. Therefore, GSA is unable to ensure the
reliability of these balances.

The Agency's accounting system is being replaced with a new, integrated
financial management system. One of its objectives is to provide easy, on-
line access to the supporting detail of financial information. The new system
should aid in identifying the transactional detail supporting G&A expenses,
but will not be fully operational for several years.

During a recent audit, we identified a methodology by which detailed
regional G&A transactions can be isolated and, therefore, analyzed for
accuracy while the new financial management system is being implemented.
By using two data source files from the accounting system, analysts can
reconcile transactional details to the lump sum regional G&A total presented
in the income statement.

Our February 8, 1999 report recommended that GSA management make
available and accessible, on a periodic basis, the data source files to the
personnel responsible for verifying the accuracy and completeness of the
income statement data. This data can then be verified for accuracy and
completeness.

Management agreed with the recommendations in the report. The audit is
still in the resolution process .

                        ..",..,...." Procurements
GSA management has embarked on an effort to redesign and streamline the
leasing program with a greater emphasis toward meeting customer needs,
along with improving the leasing process. However, some of the guidance
available to leasing specialists has been suspended and specialists are
encouraged to be more creative, attendant with associated risks. Lease
specialists are nevertheless still required to comply with basic control
elements to ensure that fair and reasonable rent rates are negotiated.

As part of a multi-regional management control review, we reported that, in
one region, controls were weak because leasing personnel did not adequately
document lease files, and control procedures had not been established to
ensure that the required level of documentation was maintained. The region
needs to provide, on a regular basis, justification for other than full and open
competition. Non-competitive leases were being awarded beyond certain
thresholds without the approval of the competition advocate as required by
regUlation,




                                                    OfTice of Inspector General 11
                                         Reviews of GSA Programs




                                           The absence of required documentation exposes the Agency to undue risk
                                           in award disputes and potential legal actions. By not implementing basic
                                           controls to ensure that the leasing files support the actions taken to achieve
                                           open market competition, or clearly justify the approval to waive this
                                           requirement, regional leasing may be criticized for not fully protecting
                                           taxpayers' interests.

                                           In our February 22, 1999 report to the Regional Administrator, we
                                           recommended that the Assistant Regional Administrator:

                                           • Reiterate to his staff the basic documentation requirements established
                                             by regulations.

                                           • Establish positive management control procedures for the purpose of
                                             ensuring that lease files contain documentation necessary to support the
                                             leasing action.

                                           The Regional Administrator agreed with the recommendations in the
                                           report. The report is still in the resolution process.

                                           Sale of Surplus
                                           GSA disposes surplus personal property for Federal agencies. Such items
                                           include vehicles, computer equipment, furniture, and a variety of other
                                           products. Sales can be conducted by sealed bid, spot bid, negotiation,
                                           fixed price sale, or auction. GSA's regional sales offices plan and conduct
                                           the sale, collect and deposit proceeds, and transfer title to purchasers. For
                                           its services, the Agency is usually reimbursed by either a fixed fee per
                                           item sold or a percentage of the sales proceeds. In FY 1998, sales
                                           exceeded $250 million.

                                           The OIG reviewed the management controls over the documenting,
                                           collecting, depositing, and reconciling of proceeds from personal property
                                           sales. We conducted our review in four separate regional sales otTices and
                                           at the Central Office, and issued a nationwide and four regional reports.

                                           We concluded that management controls were generally sufficient,
                                           although in a few instances improvements were needed to implement
                                           prescribed practices. Specifically, former Agency employees retained
                                           access to the sales automation system, ownership forms used to transfer
                                           title to a vehicle were poorly controlled, physical security within cash
                                           handling areas and during transport of bank deposits was lax, and
                                           separation of duties during sealed bid sales was not adequate.




12 Sel1liannual Report to the Congress
In our March 12, 1999 program-wide report, we recommended that the
Commissioner, Federal Supply Service:

o   Re-evaluate the proceeds deposit threshold triggering the security escort
    requirements, and initiate a change in the regulations, as appropriate.

@   Delete names of departing employees from the sales automation system at
    the time of departure; account for and properly secure ownership transfer
    forms; make deposits of cash amounts above specified dollar thresholds
    only with a security escort, and adequately secure cash handling areas; and
    separate duties among employees when transporting, opening, and
    examining sealed bids.

The Commissioner agreed with the recommendations in the report. The
report is still in the resolution process.

Two of the four regional reports recommended that management improve its
physical security control practices over cash handling activities and
accountability over title transfer documents. The Assistant Regional
Administrator in each region agreed with the report recommendations. These
reports are still in the resolution process. The other two regional reports had
no recommendations.


One of the provisions of the 1992 Energy Policy Act requires Federal
agencies to make greater use of alternative fuel vehicles. Starting in
FY 1996, an ever-increasing portion of vehicles acquired for use in
metropolitan areas with populations of 250,000 or more had to use allernalive
fuels. For FY 1999 and beyond, at least 75 percent of new acquisitions must
meet this standard. The law requires that, "to the extent practicable, agencies
shall use alternative fuels in all vehicles capable of using them," and annually
report the agency's compliance with the law. Customer agencies are looking
to the Interagency Fleet Management System (IFMS) to supply alternative
fuel usage information for vehicles leased from IFMS.

At the Agency's request, we looked to see if the amount of alternative fuel
consumed by the IFMS customer agencies can be determined from the
electronic data available in the IFMS computer systems. We concluded that
fuel consumption could not be identified in total or by customer agency.




                                                  Office of Inspector General 13
                                       We advised management of three issues that will need to be resolved
                                       before reliable alternative fuel purchase information can be obtained:

                                       • Credit card coding errors will need to be reduced to an acceptable level.

                                       8   Credit card information collected will need to be stored in a format that
                                           segregates customer agencies' alternative fuel purchases so it can be
                                           periodically compiled.

                                       .. The amount of alternative fuel purchased through cross service
                                          agreements and commercial invoices certified by Fleet Management
                                          Center personnel will need to be recorded in a manner that allows
                                          periodic summarization of customer agencies' purchases.

                                       We provided suggestions for possible ways of addressing the issues. The
                                       March 24, 1999 report was advisory in nature and did not contain any
                                       formal recommendations.




14 Semiannual Report to the Congress
Working




          One of the most significant pieces of legislation passed to improve the
          effectiveness of Government programs is the Government Performance and
          Results Act of 1993 (GPRA). The focus of the Act is to hold public managers
          more accountable for achieving desired program outcomes. The Congress
          also envisions that the OffIces of Inspector General will playa key role in
          fostering sound implementation of GPRA.

          GPRA requires each Federal agency to develop: (1) a strategic plan covering
          a period of not less than 5 years, (2) an annual performance plan consistent
          with the strategic plan, and (3) program performance reports.

          Each agency's strategic plan must contain, among other elements, a
          comprehensive mission statement, general goals and objectives, and a
          description of how the goals and objectives are to be achieved.

          The performance plans establish measurable goals and indicators to provide a
          basis for comparing actual program results with the established performance
          goals for each program activity set forth in the budget of the agency. No later
          than March 31, 2000, and no later than March 31 of each year thereafter, the
          head of each agency is required to prepare and submit to the President and
          the Congress a report on program performance for the previous fiscal year.

          We are aware that the Congress seeks the active involvement of the Offices
          of Inspector General (OIGs) in fostering sound implementation of GPRA
          through audit work in each agency. Primarily, the OIGs have been requested
          to:

          • Review agency efforts to develop and use performance measures for
            determining progress toward achieving the performance goals and program
            outcomes described in the agency's annual performance plans and
            performance reports under GPRA.

          " Verify and validate selected data sources and information collection and
            accounting systems that support the agency's GPRA strategic and
            performance plans and its performance reports.

          During recent years, the OIG has been performing selective reviews of GSA's
          performance measures as reported by the Office of the Chief Financial
          Officer (CFO) in the Agency's Annual Reports. Since FY 1994, we have
          made preliminary risk assessments of the internal controls over the data
          supporting ten performance measures.

          GSA received low acceptance ratings from the Congress and General
          Accounting Office on its strategic plan and its performance plan for FY 1999.
          To assist the Agency with its efforts to implement GPRA, we have offered


                                                            Office of Inspector General 15
                         with the




                                       our consulting services to Agency managers to assist them in whatever
                                       ways possible. Also, we benchmarked with three other Federal agencies,
                                       whose GPRA products had been better received by the Congress, to
                                       identify "best practices" that GSA could adopt. We reported, in June 1998,
                                       that the Agency could improve its implementation process by getting a
                                       higher degree of senior management involvement and more clearly
                                       articulating roles and responsibilities of the officials at alllcvels of the
                                       organization. We further reported, on March 31,1999, that we believe that
                                       personnel have improved their understanding of the underlying
                                       fundamentals of GPRA and are now focusing on measuring their more
                                       important operations. The Agency has made significant improvements in
                                       its latest GPRA submissions.

                                       Continuing our eflorts in reviewing Agency progress with GPRA
                                       requirements, we plan to assess whether the data and systems supporting
                                       six selected performance measures (two in each of GSA's major Services)
                                       exist and are accurate and complete to ensure reliable reporting.

                                       Interagency Fleet Management System

                                       This period, we completed one of the selective performance measure
                                       reviews of a specific program, the Interagency Fleet Management System.
                                       We wanted to observe problems being faced by managers in implementing
                                       GPRA and see how well managers understood the Act's requirements.

                                       The GSA mission relating to motor vehicles is to " ... provide for an
                                       economical and efficient system for transportation of Government person-
                                       nel and property." The current GSA FY 1999-2000 Annual Performance
                                       Plan identifies five performance measures relating to IPMS operations:

                                       " savings per vehicle consolidated into IFMS;

                                       e   percentage of Federal fleet operated by IFMS (market share);

                                       • rate of increase in per-mile charge compared to inflation rate;

                                       • percentage of respondents giving a "highly satisfied" rating (customer
                                         satisfaction); and

                                       • percent of requests filled (alternative fuel vehicles).

                                       Our report noted that the consolidation and market penetration
                                       performance measures do not assess IFMS's performance in terms of
                                       mission accomplishment. Rather, they are geared toward evaluating
                                       performance against the GSA strategic goals of promoting responsible
                                       asset management and competing effectively for the Federal market.

16 Semiannual Report to (he Congress
with the Government Performance and Results




        While we believe the rate of increase in per-mile charge is an appropriate
        measure, the performance goal to "Hold annual increase in per mile charges
        for interagency fleet vehicles close to the inflation rate," is not adequate.
        IFMS would not be able to adequately evaluate its performance because it
        does not communicate a measurable result to be achieved.

        Finally, the performancc goals for the customer satisfaction and the
        alternative fuel vehicle measurements are based on the combined
        performance of the vehicle acquisition and leasing functions. We pointed
        out, however, that the performance baseline for the customer satisfaction
        performance measure was established using only the leasing function. The
        differences in service provided by the acquisition and leasing functions are so
        diverse that it may not be possible for a customer to make a proper
        distinction when answering survey questions.

        One of the basic tenets of the Act's legislation is for an agency to define its
        core missions and to provide to the President and Congress, through a
        systematic method of evaluation, an annual assessment of the success it has
        had in performing those missions. It appears that the IFMS has structured its
        performance measures around the GSA strategic goals and objectives, but it
        now needs to define program success in terms of accomplishing GSA's
        mission.

        Our report of March 31, 1999 suggests several methods for focusing the
        performance measures on the basic GSA mission. We also make suggestions
        to improve the implementation of several measures.

        Internal Controls Over Performance Measures

        Also, we examined the overall design and operation of the internal controls
        over performance measures reported in the Agency's FY 1998 Annual Report.
        In our report on overall internal controls, dated February 25, 1999, we con-
        cluded that there is no clear understanding of who is responsible for verifying
        performance data at the individual service level and for GSA overall. GSA
        has not adequately defined and documented its system of controls to ensure
        that appropriate levels of management understand and are performing the
        necessary reviews of performance data. This would enable managers to
        make an assertion of completeness and existence of the data and systems
        supporting the measures. In our judgement, this condition could adversely
        affect GSA's ability to collect, process, record, and summarize performance
        information. We recommended that GSA establish a process to ensure that
        appropriate levels of management understand and are performing the
        necessary reviews of performance data, which would enable them to make
        an assertion of completeness and existence of the data and systems
        supporting the measures.


                                                          Office of Inspector General   j   7
                                       Finally, our reviews identify performance results and provide
                                       recommended improvements, and will continue to do so in the future. As
                                       part of our continuing focus on GPRA, we intend that, as an integral part
                                       of any program review, an appropriate inquiry will be made to identify and
                                       assess the program or activity's performance measures.




18 Semiannual Report to the Congress
              GSA is responsible for providing working space for almost 1 million Federal
              employees. GSA, therefore, acquires buildings and sites, constructs facilities,
              and leases space, and also contracts for repairs, alterations, maintenance,
              and protection of Government-controlled space. GSA also operates a
              Governmentwide service and supply system. To meet the needs of customer
              agencies, GSA contracts for billions of dollars worth of equipment, supplies,
              materials, and services each year. We review these procurements both on a
              preaward and postaward basis to ensure that the taxpayers' interests are
              protected.

Significant   Nearly
              During this period,the Government entered into 2 settlement agreements in
              which companies agreed to pay a total of nearly $5 million to resolve their
              potential civil liabilities under the False Claims Act. These agreements,
              negotiated by representatives of the Department of Justice and the GSA OIG,
              reflect the ongoing efforts of the OIG to pursue cases involving procurement
              fraud and other practices that threaten the integrity of the Government's
              procurement process.

              Many of these cases involved procurements under GSA's Multiple Award
              Schedule (MAS) program. Under this program, GSA negotiates contracts
              with a number of vendors who may then sell contract authorized products to
              Federal agencies at established contract prices. Consistent with the
              provisions of the Truth in Negotiations Act and the Competition in
              Contracting Act, the process is based on the principles of full and open
              disclosure and fair negotiations. Vendors must provide current, accurate, and
              complete pricing information--including information about discounts granted
              their most favored commercial customers--during contract negotiations.
              Relying on this information, GSA contracting personnel then seek to obtain
              the best possible prices for the Government. In cases where vendors fail to
              provide current, accurate, or complete information, the Government may pay
              artificially inflated prices for products and services purchased. Highlights of
              these cases follow.

              G   In a settlement of a case brought under the qui tam provisions of the False
                  Claims Act, Clark Equipment Company, a whol1y-owned subsidiary of
                  Ingersoll-Rand Company and supplier of construction equipment, agreed
                  to pay $3,000,000 to settle allegations that it failed to provide current,
                  accurate, and complete information to GSA contracting officials when it
                  negotiated two MAS contracts. These qui tam provisions allow
                  individuals to bring suit, on behalf of themselves and the Federal
                  Government, against contractors who submit false claims to the
                  Government. The private citizen who initiated this action on behalf of the
                  Government received $550,000 of the settlement amount.



                                                                Office of Inspector General 19
                                       .. Case Corporation, a supplier of road clearing and repair equipment,
                                          agreed to pay $1,900,000 to settle the Government's claims that it over-
                                          billed Federal customers, failed to pass on price reductions, and did not
                                          provide current, accurate, or complete data to GSA contracting officials.
                                          The Government alleged that Case's actions caused Federal customers
                                          to pay more for products than they otherwise would have. The prob-
                                          lems with the MAS contract were discovered in the course of a
                                          postaward audit.




                                       On February 9, 1999, an individual pled guilty in U.S. District Court to
                                       conspiracy and trafficking in stolen telephone access devices. Sentencing
                                       is scheduled for May 18, 1999.

                                       The investigation was initiated when the New York Electronic Crimes Task
                                       Force alerted the OIG of the theft of phone card numbers, including
                                       Government phone cards. The investigation found that the theft of these
                                       numbers was accomplished by intercepting public telephone calls using a
                                       dial number recorder.

                                       The individual used the stolen numbers to execute a call-sell operation. A
                                       call-sell operation is a form of illegal reselling of telephone service by
                                       using stolen calling card numbers for access to telephone networks. He
                                       used the three-way calling feature to connect the call-sell customer to a
                                       party in the foreign country or he provided the stolen number to
                                       co-conspirators in a foreign country, who then used the numbers to
                                       illegally obtain free long distance service from service providers like
                                       AT&T, MCr, and Sprint. The OIG is working with GSA Information
                                       Technology program managers to alert internal Agency and external
                                       Government phone card users of the existence of this fraud and to advise
                                       them of precautions that can be taken to prevent becoming a victim.


                                       On March 22, 1999, the president of an automated data processing (ADP)
                                       services company was sentenced in U.S. District Court to 30 months
                                       incarceration, 36 months of probation, and ordered to pay a $3,000 fine
                                       and $1,254,000 in restitution for making false statements in connection
                                       with a GSA contract. Previously, on April 13, 1998, a former Navy
                                       employee pled guilty to making false statements in connection with the
                                       same GSA contract and his sentencing is scheduled for April 1999.




20 Semiannual Report to the Congress
The OIG investigation was initiated when the Naval Criminal Investigative
Service provided information alleging that the company was inflating charges
to the Government on a contract for ADP technical support services. The
investigation found that the company overcharged the Government by
including fictitious employees' names on summary reports and inflating the
number of hours worked on Government tasks. The company president
conspired with the former Navy employee from 1993 through 1997 to make
false statements that resulted in the company being overpaid $1,103,037.




Two principals of office supply companies were sentenced in U.S. District
Court after pleading guilty to impersonating Federal officials. One
principal was sentenced on March 19, 1999 to 2 years probation and ordered
to pay a $lO,OOO fine. The other individual was sentenced on February 26,
1999 to 3 years probation and ordered to pay a $1,000 fine.

An OIG investigation was initiated when it was alleged that Xerox
Corporation products were being sold at GSA-negotiated Government
discount prices to a commercial office supply company that deceived Xerox
into believing the sales were to Government agencies. The investigation
determined that the two individuals conspired by impersonating various GSA,
Internal Revenue Service, and Department of Defense officials while pur-
chasing over $800,000 in Xerox products at GSA Multiple Award Schedule
prices. Since GSA prices are considerably lower than commercial prices, the
scheme provided for substantial profits.




On February 24, 1999, the owner of a consulting firm that contracted with
GSA to provide assistance to small and minority firms on Government
contracts pled guilty in U.S. District Court to theft of public money.
Sentencing is scheduled for May 7, 1999.

The investigation was initiated upon receipt of information that the firm
engaged in false and double billing of its clients, including GSA and city
agencies. The investigation determined that the owner fraudulently billed
clients for work not performed and multiple-billed clients for the same hours.




                                                 Office of Inspector General 21
                                       GSA provides space and related services to Federal customers through its
                                       Customer Service Centers (CSC). Authorized CSC staff can procure
                                       supplies and services needed to carry out their official responsibilities
                                       using simplified acquisition procedures. Agency-issued purchase cards are
                                       the preferred means of purchase and are considered more time-and cost-
                                       effective. Although procedures are simplified, procurement officials are
                                       still required to comply with basic management controls mandated by
                                       GSA policy and guidelines.

                                       In several recent reviews, we identified problems arising from a lack of
                                       management controls being exercised, particularly in the procurement
                                       arena. Procurement authority is commonly being delegated to employees
                                       who are neither experienced nor trained in procurement regulations.
                                       Accordingly, we performed a review of the management controls for CSC
                                       procurements.

                                       In one region, we found that formal procurements were generally made in
                                       accordance with policy and guidance. However, our review concluded that
                                       improved controls were necessary in several areas. For example, controls
                                       need to be strengthened over small purchase bankcard transactions.
                                       Because of a reduction in staffing, key duties are not separated among
                                       individuals. In addition, the approving official does not monitor and verify
                                       card usage. Finally, cardholders are not performing monthly reconcilia-
                                       tions of the card statements to the supporting documentation. Accordingly,
                                       the review pointed out that there is little to safeguard against potential mis-
                                       use or waste, and no assurance that all procurements are valid to servepro-
                                       gram needs.

                                       In our December 31, 1998 report to the Regional Administrator, we
                                       recommended that:

                                       " Approving officials monitor and verify all purchase card activities.

                                       " Individual cardholders perform monthly reconciliations.

                                       Responsive management action plans were provided for implementing the
                                       report recommendations.


                                       GSA has the responsibility to provide fully serviced space to house
                                       Government agencies in Federally-owned and leased buildings. Property
                                       Management Centers (PMCs), located throughoullhe country, fulfill the
                                       needs and requests of Government agencies that occupy space in the



22 Semiannual Report to the Congress
buildings. In general, PMC activities include procurement, asset
management, and contract and lease administration.

We conducted reviews of PMCs to see if GSA is getting what it pays for, and
to assess the economy and efficiency of PMC operations, and their
compliance with laws, regulations, and policies. One such regional review
performed this reporting period showed that procurements were prudent and
made in accordance with established policy and controls. Federally-owned
space was cleaned satisfactorily, and tenant agencies were satisfied with the
services provided by GSA's janitorial contractors.

We concluded, however, that the building equipment could be exposed to
premature failure, with resultant costly repairs and inconvenience to building
occupants, because preventive maintenance that was being performed was not
in accordance with GSA policy and practices. We also examined repair and
alteration projects. While the PMC inspected the quality and quantity of
construction services before authorizing payment, timeliness of delivery of
these services needs improvement.

The March 23, 1999 report directed recommendations to the Regional
management. These included recommendations to:

• Reassess and adjust, as necessary, the PMC's delivery and management of
  the preventive maintenance program for the buildings' equipment.

• Ensure that all janitorial contractors develop and implement a quality
  control plan.

• Provide better reimbursable construction services to tenant agencies by
  establishing and meeting delivery dates.

The Regional Administrator agreed with the recommendations in the report.
The report is still in the resolution process.




                                                 Office of Inspector General 23
                                       In addition to detecting problems in GSA operations, the OIG is
                                       responsible for initiating actions to prevent fraud, waste, and abuse and to
                                       promote economy and efficiency.

                                       The OIG's preaward audit program provides information to contracting
                                       officers for use in negotiating contracts. The pre-decisional, advisory
                                       nature of preaward audits distinguishes them from other audits. This
                                       program provides vital and current information to contracting ofIicers,
                                       enabling them to significantly improve the Government's negotiating
                                       position and to realize millions of dollars in savings on negotiated
                                       contracts. This period, the OIG performed preaward audits of 49 contracts
                                       with an estimated value of $4.7 billion. The audit reports contained over
                                       $342 million in financial recommendations.

                                       This period, five of the more significant Multiple Award Schedule (MAS)
                                       contracts we audited had projected Governmentwide sales totaling nearly
                                       $3.7 billion. The audit findings recommended that $319.7 million in funds
                                       be put to better use. The audits disclosed that four of the vendors offered
                                       prices which were not either (1) fair and reasonable considering the overall
                                       volume of sales made under the MAS contracts, or (2) comparable to the
                                       prices other customers receive from these vendors, or both. The fifth
                                       vendor could substantially reduce its rates for services performed for MAS
                                       customers if instead of its own employees the vendor used subcontractors
                                       to perform the services, which it already does when it contracts with other
                                       Federal agencies.

                                       We also audited several claims for increased costs allegedly caused by the
                                       Government during the construction and renovation of Federal buildings.
                                       Two of the more significant audits contained proposed prices totaling
                                       $4 million, and recommended adjustments of $2.7 million. In an audit of
                                       a claim for increased costs due to a Government-directed acceleration of
                                       the construction, we advised the contracting officer that a subcontractor's
                                       claim should be adjusted to eliminate duplications and unallowable
                                       contingencies. In an audit of another claim for additional costs during a
                                       contract extension, we advised the contracting officer that several subcon-
                                       tractors' costs were overstated because they duplicated expenses that were
                                       previously reimbursed, and the subcontractors had substantially completed
                                       their portion of the work before the start of the time extension.

                                       Disappointing Contracting Results

                                       Contracting officials achieved only 5 percent of' the recommended cost
                                       avoidances of $212 million for MAS preaward audits closed during this
                                       reporting period. In the 3 years preceding this period, 56 percent of our
                                       recommended MAS cost avoidances of $384 million were achieved. We
                                       are extremely concerned with the sharp decline in the sustained cost

24 Semiannual Report to the Congress
avoidances and the significant departure from historical experience. We have
brought this issue to the attention of Federal Supply Services' senior
procurement officials. They have pledged to work with us to review this
matter in detail to determine the underlying causes and, where needed, to
develop possible strategies for improving results.

The Federal Managers' Financial Integrity Act (FMFIA), Section 2, requires
GSA management to provide assurance to the President and the Congress that
Agency resources are protected from fraud, waste, mismanagement, and mis-
appropriation.

Each year, we review the Agency's FMFIA process to assess its completeness
in reporting weaknesses and deficiencies. This year, we advised management
of one material weakness that we believe should be included in the
Administrator's assurance statement and a second issue of security for
Agency computer systems.

The first issue is a material control weakness relating to the Federal
Protective Service (FPS) program for upgrading security at Federal facilities.
This program was started in response to a Department of Justice
recommendation that Federal facilities be brought up to minimum standards
through security upgrade countermeasures. We found that FPS did not
establish adequate guidance in critical areas such as equipment procurement
and installation, cost control, database control, and security countermeasure
criteria. As a result, breakdowns at regional levels led to questionable
practices. The completion status of many security countermeasures was
misrepresented, other security equipment was unaccounted for, and program
resources were not always wisely expended. The Commissioner of the
Public Buildings Service appropriately reported this issue as a material
weakness in his FMFIA letter.

The second issue concerns results from the GSA financial statement audit
being conducted that indicate weaknesses in computer system controls over
major GSA financial management systems. The Chief Financial Officer's
submission for the assurance statement, and the Office of the Chief
Information Officer agreed this was a weakness and should be included as a
non-conformance with the requirements of Office of Management and
Budget (OMB) Circular A-130 covering computer systems security.

We also advised management of six instances of a weakening of controls
over the validity of selected payments made by various GSA Services and
Staff Offices. We do not believe these questionable payments rise to the
level of a material control weakness, hut are symptomatic of a lessening in
management oversight and control which is a cause of concern.



                                                 Office of Inspector General 25
                                       The OIG presents Integrity Awareness Briefings nationwide to educate
                                       GSA employees on their responsibilities for the prevention of fraud and
                                       abuse, and to reinforce employees' roles in helping to ensure the integrity
                                       of Agency operations.

                                       This period we presented 3 briefings attended by 58 regional employees.
                                       These briefings explain the statutory mission of the OIG and the methods
                                       available for reporting suspected instances of wrongdoing. In addition,
                                       through case studies and slides, the briefings make GSA employees aware
                                       of actual instances of fraud in GSA and other Federal agencies and thus
                                       help to prevent their recurrence. The briefings have in fact led to OIG
                                       investigations based on reports by GSA employees of suspected
                                       wrongdoing.

                                       The OIG Hotline provides an avenue for concerned employees and other
                                       concerned citizens to report suspected wrongdoing. Hotline posters
                                       located in GSA-controlled buildings, as well as brochures, encourage
                                       employees to use the Hotline. During this reporting period, we received
                                       1,551 Hotline calls and letters. Of these, 63 complaints warranted further
                                       GSA action,S warranted other Agency action, and 1,483 did not warrant
                                       action.

                                       The OIG performs, on a selective basis, independent reviews of
                                       implementation actions to ensure that management's corrective actions in
                                       response to OIG recommendations are being accomplished according to
                                       established milestones. This period, the OIG performed two implementa-
                                       tion reviews. In both of these reviews, all of the recommendations had
                                       been implemented.

                                       The Chief Financial Officers Act of 1990 requires the OIG to conduct or
                                       arrange for an annual audit of the GSA consolidated financial statements.
                                       The Act also requires a report on the GSA system of internal accounting
                                       controls and compliance with laws and regulations. This audit was
                                       performed, as in past years, by an independent public accounting firm
                                       (IPA), with oversight and guidance from the OIG. This year, however,
                                       there are two significant differences between the level of work that will be
                                       performed under this contract and the previous contract, held by another
                                       IPA. The new contract incorporates:

                                       .. OMB Bulletin 97-01, which prescribes the form and content for agency
                                          financial statements that are required to be submitted to the Director of
                                          OMB.




26 Semiannual Report to the Congress
• Audits of electronic data processing controls over the significant financial
  systems within GSA. These audits, which will take place over a 3-year
  cycle, will include tests of general and application controls using the
  General Accounting Office's Federal Information Systems Control Audit
  Methodology.

In the audit report dated February 25, 1999, GSA received unqualified
opinions on its financial statements and on its system of internal accounting
controls. The report on the internal control structure notes a condition where
there is no clear understanding of who is responsible for verifying
performance data at the individual service level and for GSA overall. GSA
has not adequately defined and documented its system of controls to ensure
that appropriate levels of management understand and are performing the
necessary reviews of performance data to enable them to make an assertion
of completeness and existence of the data and systems supporting
performance measures. This condition could adversely affect GSA's ability
to collect, process, record, and summarize performance information and
report performance measures in accordance with management's criteria.
Several conditions affecting other programs or operations were identified
where steps should be taken to strengthen internal controls. None of these
was considered material.

The OIG completed a review of the program performance measures for one
program, assessing reasonableness of the control structure to generate reliable
performance information as required by OMB 93-06. We pointed out that it
appears that the program has structured its performance measures around
GSA strategic goals and objectives, but it now needs to define program
success in terms of accomplishing GSA's mission. We were able to suggest
several methods for focusing the performance measures on the basic Agency
mission. We also reported that GSA personnel have improved their
understanding of the underlying fundamentals of the Government
Performance and Results Act and are now focusing on measuring their more
important operations.




                                                  Office of Inspector General 27
                                       The Inspector General Act of 1978 requires the OIG to review existing and
                                       proposed legislation and regulations to determine their effect on the
                                       economy and efficiency of the Agency's programs and operations and on
                                       the prevention and detection offraud and mismanagement.

                                       During this period, the OrG reviewed 113 legislative matters and
                                       27 proposed regulations and directives. The OIG provided significant
                                       comments on the following legislative items:

                                       .. Draft Executive Order No.1 on IT Training. We commented that we
                                          strongly favor initiatives that would develop and promote technical
                                          training opportunities for Federal employees generally. However, we
                                          noted that the executive order would impose on organizations additional
                                          GPRA reporting requirements relating to information technology (IT)
                                          training plans and expenditures. In this regard, we noted that agencies
                                          already report IT-related expenditures periodically in both agency IT
                                          5-year reporting requirements and in submissions to the Office of
                                          Management and Budget pursuant to Circular A-ll. Thus, we
                                          commented that the GPRA reporting requirements at section three of the
                                          proposed executive order might be unnecessarily duplicative.

                                       • H.R. 391, Small Business Paperwork Reduction Act. We provided the
                                         Department of Justice, Civil Division, Commercial Litigation Branch,
                                         with a GSA-related narrative to support its comments to Congress on
                                         the provision of this bill, which mandates that civil penalties for first-
                                         time violations of information collection requirements by small
                                         businesses are waived. We explained that we had concerns about this
                                         provision's potential impact on the Government's ability to collect civil
                                         penalties under the civil False Claims Act for fraudulent pricing of
                                         GSA's Multiple Award Schedule contracts.

                                       In addition, the OIG provided comments on the following proposed
                                       regulations:

                                       .. EEOC Draft Final Rule - Federal Employee EEO Complaint
                                          Processing. Our comments related to the portion of the proposed
                                          changes to the Equal Employment Opportunity complaint processing
                                          procedures that would permit the award of attorney's fees, for the
                                          informal counseling stage, to complainants who eventually prevail
                                          before the Equal Employment Opportunity Commission. We generally
                                          opposed the change on the grounds that it would make the informal
                                          counseling phase more formal, more adversarial, and less effective.




28 Semiannual Report to the Congress
.. Proposed Changes to GSAR Examination of Records Clause. We advised
   against amending the General Services Acquisition Regulation (GSAR) to
   eliminate the requirement that the GSA Examination of Records clause be
   included in contracts both with economic price adjustment (EPA) clauses
   and in indefinite delivery-indefinite quantity, requirements, or letter
   contracts. We noted generally that, given the current trend towards using a
   variety of innovative contracting vehicles, it would be ill-advised to
   eliminate wholesale these two categories of contracts from the reach of
   this audit authority, solely for the purpose of streamlining the GSAR. In
   addition, we commented that the terms of GSA contracts are generally
   getting longer and it is reasonable to expect that EPA clauses will be used
   increasingly in the future. In this context, we would be reluctant to
   eliminate audit coverage for all such contracts .

.. GSA Proposed Comprehensive Acquisition Planning Item #641. We
   commented that, in order to waive the proposed rule's acquisition planning
   requirements for major acquisitions, i.e., those valued at $50 million or
   more, the approval of the Office of Acquisition Policy should be required.
   The draft circular required the approval only of the relevant Head of
   Service or Staff Office. We felt that approvals at the higher level should
   be required to provide sufficient management controls of such significant
   acquisitions.




                                                 Office of Inspector General 29
                                        The OIG issued 91 audit reports. The 91 reports contained financial
                                        recommendations totaling $347,482,649, including $342,565,274 in
                                        recommendations that funds be put to better use and $4,917,375 in
                                        questioned costs. Due to GSA's mission of negotiating contracts for
                                        Governmentwide supplies and services, most of the savings from
                                        recommendations that funds be put to better use would be applicable to
                                        other Federal agencies.

                                                                                Audit    _tt:1IB"'IW'IIII''''lr1l::!


                                        Table 1 summarizes the status of the universe of audits requiring
                                        management decisions during this period, as well as the status of those
                                        audits as of March 31,1999. Four reports more than 6-months old were
                                        awaiting management decisions as of March 31, 1999; all of them were
                                        preaward audits, issued before February 10, 1996, which are not subject to
                                        the 6-month management decision requirement. Table 1 does not include
                                        2 reports issued to other agencies this period. Table 1 also does not
                                        include 22 reports excluded from the management decision process
                                        because they pertain to ongoing investigations.


                          Table 1. Management Decisions on OIG Audits
                                                                          Reports with        Total
                                                         No. of             Financial       Financial
                                                        Reports         Recommendations Recommendations

 For which no management decision
 had been made as of 10/1/98
   Less than 6 months old                                  47                  32                           $257,374,105
   More than 6 months old                                     7                 6                              1,172,386
 Reports issued this period                               89
                                                         ---------
                                                                               48                             34§,~15,630
 TOTAL                                                   143                   86                           $605,262,121
 For which a management decision
 was made during the reporting period
   Issued prior periods                                    50                  35                           $258,200,836
   Issued current period                                   49                  22                           J§_4:,?46 ,531
 TOTAL                                                     99                  57                           $542,747,367
 For which no management decision
 had been made as of 3/31/99
   Less than 6 months old                                  40                  26                          $ 62,169,099
   Morc than 6 months old                                   4                   3                                      ~4.~,()~:5
 TOTAL                                                     44                  29                          $ 62,514,754


30 Semiannual Report to the Congress
                                      Tables 2 and 3 present the audits identified in Table 1 as containing financial
                                      recommendations by category (funds to be put to better use or questioned
                                      costs).



                    Table 2. Management Decisions on OIG Audits with
                     Recommendations that Funds be Put to Better Use

                                                                No. of                         Financial
                                                               Reports
                                                                -----
                                                                                           Recommendations
                                                                                                      - - -




For which no management decision had
been made as of 10/1/98
  Less than 6 months old                                          21                        $250,038,864
  More than 6 months old                                           6                           1,172,386
Reports issued this period                                        40                         341,798,255
TOTAL                                                             67                        $593,009,505
For which a management decision was
made during the reporting period
  Recommendations agreed to by
  management based on proposed
  "management action                                                                        $337,564,735
  "legislative action
  Recommendations not agreed to
  by management                                                                              193,618,329
TOTAL                                                              39                       $531,183,064
For which no management decision had
been made as of 3/31/99
  Less than 6 months old                                           25                       $ 61,480,786
  More than 6 months old                                            3                            345,655
TOTAL                                                              28                       $ 61,826,441




                                                                                        Office of Inspector General 31
                           Table 30 Management Decisions on OIG Audits
                                      with Questioned Costs

                                                            No. of                           Questioned
                                                           Repol't~ ____ ~_~__~~_~             Costs

 For which no management decision
 had been made as of 10/1/98
   Less than 6 months old                                      11                        $ 7,335,241
   More than 6 months old                                       o                                   o
 Reports issued this period                                     8                            4,917,375
 TOTAL                                                         19                        $12,252,616
 For which a management decision
 was made during the reporting
 period
   Disallowed costs                                                                      $11,871,024
   Costs not disallowed                                                                              o
 TOTAL                                                         18                        $11,871,024*
 For which no management decision
 had been made as of 3/31/99
   Less than 6 months old                                       1                        $     688,313
   More than 6 months old                                       o                                    o
 TOTAL                                                          1                        $     688,313

 *Includes $306,721 that management decided to seek that exceeded recommended amounts.




32 Semiannual Report to the Congress
                       The OIG opened 53 investigative cases and closed 76 cases during this
                       period. In addition, the OIG received and evaluated 78 complaints and
                       allegations from sources other than the Hotline that involved GSA employees
                       and programs. Based upon our analyses of these complaints and allegations,
                       OIG investigations were not warranted.



                       The OIG makes criminal referrals to the Department of Justice or other
                       authorities for prosecutive consideration and civil referrals to the Civil
                       Division of the Department of Justice or U.S. Attorneys for litigative
                       consideration. The OIG also makes administrative referrals to GSA officials
                       on certain cases disclosing wrongdoing on the part of GSA employees,
                       contractors, or private individuals doing business with the Government.



                    Table    Summary of               Referrals

!)p_e()f Refer!al                       Cases                              ___§lllJjects
Criminal                                  23                                      43
Civil                                      8                                      13
Administrative                            59                                      83
TOTAL                                     90                                     139

                       In addition, the OIG made 9 referrals to other Federal activities for further
                       investigation or other action and 33 referrals to GSA officials for
                       informational purposes only.



                       Based on these and prior referrals, 13 cases (27 subjects) were accepted for
                       criminal prosecution and 4 cases (8 subjects) were accepted for civil
                       litigation. Criminal cases originating from OIG referrals resulted in
                       6 indictments/informations and 6 successful prosecutions. OIG civil
                       referrals resulted in 4 cases being accepted for civil action and 4 case
                       settlements. Based on OIG administrative referrals, management debarred
                       3 contractors, and took 8 personnel actions against employees.




                                                                         Office of Inspector General 33
                                          Table 5 presents the amounts of fines, penalties, settlements, judgments,
                                          and restitutions payable to the U.S. Government as a result of criminal and
                                          civil actions arising from OIG referrals.

                                          In addition, the OIG had administrative recoveries of $2,210,901 during
                                          the course of its investigations, predominantly in investigative savings.


                                  Table
                                                               Criminal                          Civil

            Fines and Penalties                           $     17,700                   $

            Settlements and Judgments                                                        5,238,328

            Restitutions                                      1,814,948

            TOTAL                                         $1,832,648                     $5,238,328




34 Semiannual Report to the Congress
I
                                     J



Under the Agency audit management decision process,          The remaining recommendations include combining two
the GSA Office of the Chief Financial Officer, Office        forms into one; exploring contracting with a third party;
of the Controller, is responsible for tracking the           establishing one industrial funding fee for all customers;
implementation of audit recommendations after a              and developing a database. They are scheduled for
management decision has been reached. That offIce            completion between June 15, 1999 and November 15,
furnished the following status information.                  1999.
Nineteen audits highlighted in prior Reports to the
Congress have not yet been fully implemented; all are
being implemented in accordance with currently
                                                             Period First Reported: April 1, 1998 to September 30, 1998
established milestones.
                                                             The review assessed GSA's efforts to place four million
Security                                                     items on the GSA Advantage system. The report
Buildings                                                    contained five recommendations; four have been imple-
Period First Reported: April J, 1998 to September 30, J998   mented.
The review evaluated GSA's program for upgrading
security in Federal buildings. The report contained six      The remaining recommendation involves developing a
recommendations; four have been implemented.                 plan to achieve the project's objectives. It is scheduled for
                                                             completion by September 15, 1999.
The remaining recommendations involve establishing an
inventory over x-ray units and portable equipment, and                          Systems Security
tracking and reporting cost data for future counter-
measures. They are both scheduled for completion by          Period First Reported: April 1, 1998 to September 30, 1998
January 15,2000.                                             The review assessed the security measures of six major
                                                             Internet and Intranet GSA applications. The report con-
Property
ActIvities                                                   tained four recommendations; one has been implemented.

Period First Reported: April 1, 1998 to September 30, J998   The remaining recommendations include establishing an
                                                             information technology (IT) security program; specifying
The review identified opportunities for strengthening
                                                             roles and responsibilities for systems to ensure security;
controls over procurement-related issues. The report
                                                             and basing IT security decisions on risk assessments.
contained eight recommendations; seven have been
                                                             They are scheduled for completion between June 15, 1999
implemented.
                                                             and September 15, 1999.
The remaining recommendation involves the collection of
recommended savings. It will remain open until
collection is verified. It is scheduled for completion by    Period First Reported: April 1, 1998 to September 30, 1998
July 15,1999.
                                                             The review focused on the controls over Agency
                                                             conference site selections and expenditures. The report
                                                             contained four recommendations; two have been imple-
                                                             mented.
Period First Reported: April J, 1998 to September 30, 1998
The review assessed GSA's Travel Management                  One recommendation involves documentation relative to
program funding fee. The reporl conlained seven              the conference, attendees, alternative sites, costs, and
recommendations; three have been implemented.                appropriate approval. It is scheduled for completion by


                                                                                              Office of Inspeetor General 37
                                       I



April 15, 1999. The second recommendation involves
the determination and reporting of Purpose Statute
violations. It is scheduled for completion by May 15,         Period First Reported: October 1, 1997 to March 31, 1998
1999.                                                         The review identified opportunities for improving work-
                                                              load management. The report contained one recommen-
                                                              dation; it has not yet been implemented.
Period First Reported: October 1,1997 to March 31, 1998
                                                              The recommendation involves the need to automate
The evaluation focused on the controls over the use of the
                                                              key activities of the contracting process. It is scheduled
International Merchant Purchase Authorization Cards
                                                              for completion by December 15, 1999.
(IMPAC) for small purchases. The report contained four
recommendations; one has been implemented.

The recommendations include improving management              Period First Reported: October 1, 1997 to March 31, 1998
controls; developing a review program of card                 The review focused on the training and experience
practices and transactions; and providing training. They      requirements for procurement personnel. The report
are scheduled for completion between April 15, 1999 and       contained four recommendations; three have been
May 15, 1999.                                                 implemented.

                                                              The remaining recommendation involves trammg
Period First Reported: October 1, 1997 to March 31, 1998      requirements for contracting officers. It is scheduled for
                                                              completion by April 15, 1999.
The review focused on GSA's plans to consolidate
security control centers into four megacenters. The report
contained four recommendations; none has been imple-
mented.                                                       Period First Reported: October 1, 1997 to March 31, 1998
                                                              The review assessed GSA's progress for planned systems
The recommendations include developing alternate              conversions. The report contained three recommenda-
access procedures; developing contingency plans to            tions; two have been implemented.
continue the dispatch function during natural disasters;
upgrading alarm systems; and implementing a preventive        The remaining recommendation involves taking steps to
alarm maintenance program. They are scheduled for             manage, coordinate, and accelerate year 2000 computer
completion by June 15,2000.                                   analysis and conversion. It is scheduled for completion
                                                              by October 15, 1999.

Period First Reported: October 1, 1997 to March 31, 1998
The review identified opportunities for improving the
accuracy of GSA's rent billing data. The report contained
                                                              Period First Reported: April 1, 1997 to September 30, 1997
three recommendations; two have been implemented.
                                                              The evaluation focused on a review of the Federal
The remaining recommendation involves reassessing             Protective Service's criminal investigation activities. The
accountability for building and tenant data accuracy. It is   report contained five recommendations; two have been
scheduled for completion by June 15, 1999.                    implemented.




38 Semiannual Report to The Congress
                                     I




The remammg recommendations include establishing               agencies to recover costs, and developing a mechanism
measurable performance standards; improving program            for billings. It is scheduled for completion by April 15,
accountability; and considering adoption of benchmarked        1999.
best practices on a national basis. They are scheduled for
completion between June 15, 1999 and August 15, 1999.
                                                               Period First Reported: October 1, 1996 to March 31, 1997
                                                               The review identified opportunities for improving
Period First Reported: April 1, 1997 to September 30, 1997
                                                               the debarment program. The report contained two
The review examined the real estate tax administration of      recommendations; they have not yet been implemented.
GSA's leases. The report contained two recommenda-
tions; one has been implemented.                               One recommendation involves modifying the new
                                                               contractor information system and is scheduled for
The recommendation involves modifying contract proce-          completion by August 15, 1999. The other recommenda-
dures to ensure the Government receives its share of           tion involves providing debarment program training to
reductions in real estate taxes. While all pertinent actions   contracting officers. It is scheduled for completion by
have been taken, it remains open until all recovery actions    May 15, 1999.
are completed. It is scheduled for completion by July 15,
1999.


                                                               Period First Reported: October 1, 1995 to March 31, 1996
Period First Reported: April 1, 1997 to September 30, 1997
                                                               The review identified opportunities for improving
A review of the program management systems noted that          the accuracy and reliability of information provided to
improvements were needed in computing the economic             program managers. The report contained four recommen-
order quantity (EOQ). The report contained three recom-        dations; three have been implemented.
mendations; two have been implemented.
                                                               The remaining recommendation involves improving the
The remaining recommendation involves improving the            accuracy and reliability of computerized lead-time
accuracy and reliability of EOQ to reduce inventory levels     projections and is scheduled for completion by May 15,
and operating costs. It is scheduled for completion by         1999.
May 15, 1999.


                                                               Period First Reported: October 1, 1995 to March 31, 1996
Period First Reported: October 1, 1996 to March 31, 1997
                                                               The review identified opportunities for improving GSA's
The review focused on GSA's role in the Federal                program to assist civilian agencies with the management
Government's telecommuting initiatives, and the recovery       and cost-effectiveness of their aircraft operations.
of costs and the methods being used to recover costs. The      The report contained five recommendations; four have
report contained two recommendations; one has been             been implemented.
implemented.
                                                               The remaining recommendation concerns the identification
The remaining recommendation involves developing               of aircraft data necessary for making informed decisions
billing rates for Federal telecommuting center customer        and is scheduled for completion by May 15, 1999.




                                                                                               Office of Inspector General 39
                                                                                            Financial
                                                                                       Recommendations
                                                                                                    ---------_ .....-

                                                                                 Funds to             Questioned
Date of          Audit                                                           Be Put To         (Unsupported)
Report           Number                     Title                                Better Use             Costs


(Note: Because some audits pertain to contracting award or actions which
have not yet been completed, the financial recommendations to these reports
are not listed in this Appendix.)




11/04/98         A80645      Management Consulting Review: Review of
                             Asbestos Problem at the Peter Rodino, Jr. FOB,
                             Newark, New Jersey

                     Audits
10/08/98         A83048      Limited Review of Funding Related to Major
                             Construction Projects in the National Capital
                             Region

11118/98         A82453      Audit of Procurements in the Helena, Montana,
                             Field Office

12101198         A80321      Audit of the Availability of Federal Building
                             Design Plans

12/31/98         A82141      Review of the Dallas and Houston Customer
                             Service Centers

01105199         A83312      Audit of U nbilled Space in Building A at the GSA                       $1,000,000
                             Stores Depot, Franconia, Virginia

02/08/99         A82704      Audit of the Reliability of Regional General and
                             Administrative Expense in PBS Building Income
                             Statements

02/22/99         A82476      Management Control Review of Pricing
                             Negotiated Leasing Procurements, Public
                             Buildings Service, Pacific Rim Region

03118199         A80647      Follow-up Audit of the Federal Protective
                             Service's Program for Upgrading Security at
                             Federal Facilities

03/18/99         A83304      Audit of Vacant Space

03/22199         A83042      Audit of Change Orders, Portals II




40 Semiannual Report to The Congress
                                                                                     Financial
                                                                                Recommendations
                                                                          Funds -to----            --   ----------

                                                                                               Questioned
Date of    Audit                                                          Be Put To         (Unsupported)
Report     Number                  Title                                  Better Use             Costs


03123/99   A81543   Audit of the Public Buildings Service Property
                    ManagementCenter in Des Moines, Iowa

03124/99   A83305   Audit of PBS Initiatives to Improve Space
                    Alterations

03124/99   A995025 Audit of Security Measures for New and Renovated
                   Federal Facilities

03126/99   A995156 Postaward Lease Audit: 1001 Bishop Street,
                   Honolulu, HI, Pacific Rim Region

03/30/99   A82708   Review of Reporting Controls Over Direct Building
                    Costs, Greater Southwest Region


10108/98   A81826   Preaward Audit of Time Extension Proposal:
                    Subcontractors to J.E. Dunn Construction Company,
                    Contract Number GS06P94GYC0076

10/09/98   A81825   Preaward Audit of Time Extension Proposal: J.E.
                    Dunn Construction Company, Contract Number
                    GS06P94GYC0076

10/13198   A80636   Pre award Audit of a Claim: Structural Preservation
                    Systems, Inc., Contract Number GS-02P-96-DTC-
                    0033

10120/98   A80649   Preaward Audit of Architect and Engineering
                    Services Contract: Gwathmey Siegel & Assoc.
                    Architects, LLC, Solicitation Number GS-02P-98-
                    DTC-0059(N)

10122/98   A80935   Preaward Audit of Architect and Engineering
                    Services Contract: ave Arup & Partners, Contract
                    Number GS-02P-98-DTC-0059(N)

10122/98   A83027   Audit of Claim for Increased Cost: Clark Concrete
                    Contractors, Inc., Contract Number GS-IIP94-
                    MKC0078

10/30/98   A81527   Audit of Claim for Increased Costs: BPT Courthouse
                    Associates, L.P., Contract Number GS-05P-93-
                    GBC-0004


                                                                                 Office of Inspector General 41
                                                                                             Financial
                                                                                        Recommendations
                                                                                                -
                                                                                  -----------------"-       ---

                                                                                   Funds to            Questioned
Date of           Audit                                                           Be Put To         (Unsupported)
Report            Number                      Title                               Better Use             Costs


11/13/98          A82471       Pre award Audit of a Claim for Increased Costs:
                               Hensel Phelps Construction Company, Contract
                               Number GS-08P-96-JFC-0006

11/16/98          A80646       Pre award Audit of a Claim: Beacon/Pro Con Joint
                               Venture, Contract Number GS-02P-94-CUC-
                               0070(N)

11117/98          A80644       Limited Postaward Audit of Direct Labor Rates:
                               Hines GS Properties, Inc., Lease Number GS-02B-
                               22885

12/15/98          A82472       Preaward Audit of a Claim for Increased Costs:
                               Trautman & Shreve, Inc., Subcontractor to Hensel
                               Phelps Construction Company, Contract Number
                               GS-08P-96-JPC-0006

12/16/98          A995006 Preaward Audit of a Claim: Chereco Co., Inc.,
                          Subcontractor to TGMIIContractors, Inc., Contract
                          Number GS-03P-96-DXC-0021

12/22/98          A995005 Preaward Audit of a Claim: TGMI/Contractors,
                          Inc., Contract Number GS-03P-96-DXC-0021

01105/99          A995101 Preaward Audit of Claim for Increased Costs:
                          Program and Construction Management Group,
                          Contract Number GS-llP-94MKC-0019

01/08/99          A80648       Preaward Audit of Architect and Engineering
                               Services Contract: Lehrer McGovern Bovis, Inc.,
                               Solicitation Number GS-02P-98-DTC-0073(N)

01114/99          A995132 Preaward Audit of Architect and Engineering
                          Services Contract: Leedshill-Herkenhoff, Inc.,
                          Solicitation Number GS-07P-98-JUC-0022

01121199          A995123 Limited Review of Claimed Incurred Costs:
                          Linpro New York Realty, Inc., 290 Broadway
                          Retail Space

01/28/99          A995126 Preaward Audit of Cost or Pricing Data: CTA
                          Architects Engineers, Solicitation Number GS-
                          08P-98-JCC-0037




42 Sellliannual ReporL Lo The Congress
                                                                                   Financial
                                                                              Recommendations
                                                                        -Funds-to-Questioned
Date of    Audit                                                        Be Put To         (Unsupported)
Report     Number                  Title                                Better Use            Costs


01/29/99   A995] 06 Postaward Audit of Overhead Rate: Turner            $36,008
                    Construction Company, Contract Number GS-05P-
                    94GBC-0051

02/04/99   A995097 Preaward Audit of Architect and Engineering
                   Services Contract: Diversified Engineering, Inc.,
                   Solicitation Number GS-11P98EGD0004

02/05/99   A995113 Preaward Audit of Supplemental Architect and
                   Engineering Services Contract: Van Deusen &
                   Associates, Solicitation Number GS-02P-98-PLD-
                   0029(N)

02/10/99   A995158 Pre award Audit of Architect and Engineering
                   Services Contract: H + G Architects, Solicitation
                   Number GS-02P-98-PLD-OO 15(N)

02/11/99   A83055   Preaward Audit of Architect and Engineering
                    Services Contract: Benbassat & Sporidis Company,
                    Solicitation Number GS-11 P98EGD0004

02/16/99   A995154 Preaward Audit of Supplemental Architect and
                   Engineering Contract: Technicon Engineering, Inc.,
                   Solicitation Number GS-04P-98-RBD-0049

02117/99   A995100 Preaward Audit of a Claim: Chereco Co., Inc.,
                   Subcontractor to TGMI/Contractors Inc., Contract
                   Number GS-03P-96-DXC-0021

02/19/99   A995166 Audit of Termination Claim: W.J. McGuire
                   Company, Contract Number GS05P97GAC0207

02/24/99   A995168 Audit of Architect and Engineering Services
                   Contract: Schmidt Associates, Inc., Contract No.
                   GS-05P-96-GBC-00 13

02/26/99   A995117 Preaward Audit of Claim for Increased Costs:
                   William V. Walsh Construction Company, Inc.,
                   Contract Number GS-11P96MKC0027

02/26/99   A995153 Preaward Audit of Cost or Pricing Data: Berkebile,
                   Nelson, Immenschuh, McDowell Architects,
                   Solicitation Number GS06P98GYD0018




                                                                                Office of Inspector General 43
                                                                                            Financial
                                                                                       Recommendations
                                                                                  -- - - - - - - - - - - - - - - - - - _.. -

                                                                                  Funds to            Questioned
Date of          Audit                                                           Be Put To         (Unsupported)
Report           Number                     Title                                Better Use             Costs


03/02/99         A995139 Preaward Audit of a Claim: Stromberg Metal
                         Works, Inc., Subcontractor to W.M. Schlosser
                         Company, Inc., Contract Number GS-03P-92-
                         DXC-0021

03/05/99         A83053      Preaward Audit of Claim for Increased Costs:
                             American Combustion Industries, Inc., a
                             Subcontractor to Walsh Construction Co., Inc.,
                             Contract Number GS .. 11 P96MKC0027

03/09/99         A995165 Audit of Termination Settlement Proposal: HPH
                         Mechanical, Inc., Contract Number GS-08P-97-
                         VEC-0061

03/11/99         A995177 Preaward Audit of Supplemental Architect and
                         Engineering Contract: Prad Group, Inc.,
                         Solicitation Number GS-04P-98-RBD-0049

03/19/99         A995124 Audit of Claim for Increased Costs: Dawson
                         Building Contractors, Inc., Contract Number GS-
                         04P-95-EXC-0046

03/24/99         A995128 Preaward Audit of Cost or Pricing Data: Sachs
                         Electric Company, Subcontractor to Morse Diesel
                         International, Inc., Contract Number GS06P95-
                         GZC0501

03/30/99         A995150 Preaward Audit of Supplemental Architect and
                         Engineering Services Contract: Ammann &
                         Whitney Consulting Engineers, P.e., Solicitation
                         Number GS-02P-98-PLD-0015(N)


10/30/98         A81832      Review of Federal Supply Service Customer's
                             Complaint of Excessive Selling Price

11/30/98         A83056      Audit of Professional Travel Corporation, Travel
                             Management Center

03/03/99         A82474      Management Control Review of Proceeds From
                             Sales of Surplus Personal Property, The Heartland
                             Region




44 Semiannual Report 10 The Congress
                                                                                       l?inancial
                                                                                  Recommendations
                                                                                                ---   ------   -   -   - - - - - ----

                                                                             Funds to             Questioned
Date of    Audit                                                            Be Put To          (Unsupported)
Report     Number                  Title                                    Better Use              Costs


03/03/99   A82474   Management Control Review of Proceeds From
                    Sales of Surplus Personal Property, Pacific Rim
                    Region

03/12/99   A82474   Management Control Review of Proceeds From
                    Sales of Surplus Personal Property

03123/99   A995145 Review of Eastern Fleet Management Center,
                   Hyattsville, Maryland

03124/99   A81544   Advisory Review of the Interagency Fleet
                    Management System Reporting of Customers'
                    Usage of Alternative Fuels

03/26/99   A82474   Management Control Review of Proceeds From
                    Sales of Surplus Personal Property, Northeast &
                    Caribbean Region

03/26/99   A82474   Management Control Review of Proceeds From
                    Sales of Surplus Personal Property, Mid-Atlantic
                    Region

03/30/99   A82705   Advisory Review of Interagency Fleet Management
                    System (IFMS) Performance Measures


10/02/98   A81226   Preaward Audit of Multiple Award Schedule
                    Contract:     Slickbar Products   Corporation,
                    Solicitation Number 7FXG-U5-98-1901-B

10/05/98   A82150   Preaward Review of Multiple Award Schedule
                    Contract: Zodiac of North America, Inc., Solicitation
                    Number 7FXG-U5-1901-B

10/07/98   A80937   Limited Audit of Industrial Funding Fee Under                                     $49,731
                    Contract Number GS-26F-1018B: Danka Office
                    Imaging Company

10/07/98   A82151   Price Adjustments on Multiple Award Schedule
                    Contract: Motorola, Incorporated, Contract Number
                    GS-35F-1l25-D for the Interim Period October 1,
                    1998 Through September 30, 1999




                                                                                    Office of Inspector General 45
                                                                                           Financial
                                                                                  -
                                                                                      Recommendations
                                                                                      -"~.~        ---------------------- - -

                                                                                 Funds to            Questioned
Date of          Audit                                                          Be Put To         (Unsupported)
Report           Number                     Title                               Better Use             Costs


10/08/98         A80928      Preaward Audit of Multiple Award Schedule
                             Contract for the Extension Period April 1, 1999
                             Through March 31, 2002: Science Applications
                             International Corporation, Contract Number GS-
                             35F-4461G

10/20/98         A80639      Postaward Audit of Multiple Award Schedule                               $13,384
                             Contract: Photon Technology International, Inc.,
                             Contract Number GS-24F-1140B

10/27/98         A51542      Postaward Audit of Multiple Award Schedule                          $1,163,140
                             Contract: Liebert Corporation, Contract Number
                             GSOOF06964

10/27/98         A51568      Postaward Audit of Multiple Award Schedule                            $229,935
                             Contract: Liebert Corporation, Contract Number
                             GS-07F-3779A

11103/98         A80932      Preaward Review of Multiple Award Schedule
                             Contract for the Extension Period April 1, 1999
                             Through March 31, 2002: Micron Electronics,
                             Inc., Contract Number GS-35F-4317D

11109/98         A995027 Preaward Review of Multiple Award Schedule
                         Contract: Carolina Shoe Company, Solicitation
                         Number 7FXG-E4-97-8409-B

12/03/98         A82146      Preaward Review of Multiple Award Schedule
                             Contract: Dell Marketing, L.P., Contract Number
                             GS-35F-4076D

12/09/98         A82139      Preaward Audit of Multiple Award Schedule
                             Contract: ASAP Software Express, Inc., Contract
                             Number GS-35F-4027D

12117/98         A995107 Preaward Audit of Sex Crimes Study Contract:
                         National Academy of Public Administration,
                         Solicitation Number AT/TC 20271

01/05/99         A995035 Preaward Audit of Multiple Award Schedule
                         Contract: Toshiba America Information Systems,
                         Inc., Computer Systems Division, Solicitation
                         Number FCIS··JB-98000lB




46 Semiannual Report to The Congress
                                                                                    Financial
                                                                               Recommendations
                                                                                      - - - -- -- - - - - - ------- ------

                                                                         Funds to             Questioned
Date of    Audit                                                         Be Put To         (Unsupported)
Report     Number                  Title                                 Better Use             Costs


01/06/99   A50944    Postaward Audit of Multiple Award Schedule                                           $179,593
                     Contract: E.I. DuPont De Nemours and Company,
                     Inc., Contract Number GS-00F-4505A for the
                     Interim Period February 1, 1991 Through April 30,
                     1995

01111/99   A995031 Interim Period Postaward Audit of Multiple Award
                   Schedule Contracts: Harter Corporation, Contract
                   Numbers GS-29F-01S5C and GS-28F-0002B

02118/99   A71517    Postaward Audit of Multiple Award Schedule                                      $1,593,279
                     Contract: Case Corporation, Contract Number GS-
                     00F-5402A

03110/99   A995136 Preaward Audit of Multiple Award Schedule
                   Contract: Booz Allen & Hamilton, Inc., Solicitation
                   Number FCIS-JB-98000 1B

03111199   A70916    Postaward Audit of Multiple Award Schedule                                            $688,313
                     Contract: Intermetro Industries Corporation,
                     Contract Number GS-07F-6655A for the Period
                     March 12, 1993 Through September 30, 1996

03111199   A995133 Preaward Audit of Multiple Award Schedule
                   Contract for the Extension Period April 1, 1999
                   Through September 30, 2002: IBM Corporation,
                   Contract Number GS-35F-4984H

03112/99   A995161 Preaward Audit of Cost or Pricing Data Proposal:
                   Eagle Research Group, Inc., Solicitation Number
                   TFTP-98-SC-874

03/30/99   A995120 Preaward Audit of Multiple Award Schedule
                   Contract for the Extension Period April 1, 1999
                   Through March 31, 2002: Government Technology
                   Services, Inc., Contract Number GS-35F-4120D


12/08/98   A82710    Report on Limited Audit of the Fiscal Year 1998
                     Federal Managers' Financial Integrity Act
                     Assurance Statements




                                                                                 Office of Inspector General 47
                                                                                         Financial
                                                                                    Recommendations
                                                                                             - - -------- --- ---------,-


                                                                               Funds to            Questioned
Date of         Audit                                                         Be Put To         (Unsupported)
Report          Number                     Title                              Better Use             Costs


12116/98         A83610      Audit of Progress Made in Converting GSA's
                             Office of the Chief Financial Officer Computer
                             Systems to Operate in the Year 2000

02110/99         A995028 General Services Administration Office of
                         Inspector General's Report on Payroll
                         Withholdings, Contributions and Employee
                         Headcount Data

02125/99         A81216      Survey of GSA Staff Office Payments

02125/99         A82709      Report on Internal Controls Over Performance
                             Measures


11112/98         A995009 Audit of the Administrative Procedures of the
                         National Capita] Planning Commission

12115/98         A82475      Preaward Audit of a Claim: Shell Oil Company




48 Semiannual Report to The Congress
Pursuant to Section 810, Prompt Resolution of Audit         after the report issuance date. The GSA Office the Chief
Recommendations, of the National Defense Authorization      Financial Officer, Office of the Controller, furnished the
Act, (Public Law 104-106), this appendix identifies those   following information.
audit reports where final actions remain open 12 months


 Audits with Management Decisions Made after February 10, 1996 for Which No Final Action Has Been Completed

Date of        Audit
Report         Number                                           Title




03/01/96        A60327      Report on Audit of Subcontractor's Claim for Increased Costs: Kendland Company Inc.,
                            Contract Number GSOIP93BZC0003

03/18/96        A60318      Report on Audit of Claim for Increased Costs: Maron Construction Co., Inc., Contract
                            Number GSO 1P93 BZC0003

OS/29/96        A10542      Postaward Audit of Multiple Award Schedule Contract: Sunshine Chemical Specialties,
                            Inc., Contract Number GS-00F-87668

08/15/96        A51827      Postaward Audit of Multiple Award Schedule Contract: Sybase, Inc., Contract Number
                            GSOOK92AGS5576 for the Period September 9, 1992 Through September 30, 1993

08/21/96        A61544      Preaward Audit of a Claim: D. L. Woods Construction, Inc., Contract Number
                            GS05P91 GBC0057

09/20/96        A61534      Preaward Audit of a Claim: Marino Construction Company, Contract Number
                            GS05P90GBCO 10 1

10/17/96        A53617      Postaward Audit of Multiple Award Schedule Contract: Cantwell-Cleary Co., Inc., Contract
                            Number GS-02F-6071A for the Interim Period March 31, 1992 Through October 31, 1994

11/01/96        A21882      Postaward Audit of Multiple Award Schedule Contract: Hamilton Sorter Company, Inc.,
                            Contract Number GS-00F-07065 for the Period November 14, 1988 Through
                            September 30, 1991

11/01/96        A31851      Postaward Audit of Multiple Award Schedule Contract: Hamilton Sorter Company, Inc.,
                            Contract Number GS-00F-02598 for the Period August 26, 1988 Through March 31, 1991

11101/96        A31865      Postaward Audit of Multiple Award Schedule Contract: Hamilton Sorter Company, Inc.,
                            Contract Number GS-00F-02046 for the Period December 4, 1987 Through September 30,
                            1990

12/17/96        A70606      Postaward Audit of Travel Costs: Centel Federal Systems Corporation, Contract Number
                            GS-00K-89AHD0007




                                                                                           Office of Inspector General 49
                   111-


Date of          Audit
Report           Number                                          Title


01/10/97         A52159       Postaward Audit of Multiple Award Schedule Contract: Austin Computer Systems, Inc.,
                              Contract Number GS-00K-91-AGS-5201

01124/97         A72431       Audit of Real Estate Tax Adjustments: Pacific Corporate Towers, LLC, Lease Number GS-
                              09B-85185, Calendar Years 1987 Through 1995

02/06/97         A70622       Preaward Audit of Change Order Proposal: Turner Construction Company, Contract
                              Number GS-02P-95-DTC-0014

03/17/97         A72433       Audit of Real Estate Tax Adjustments: L.A. World Trade Center Partnership and Royal
                              Investment System Partnerships, Lease Number GS-09B-85563, Calendar Years 1989
                              Through 1996

03/21/97         A70632       Pre award Audit of Change Order Proposal: Expert Electric, Inc., Contract Number GS-
                              02P-94-CUC-0033(N)

03/24/97         A72434       Audit of Real Estate Tax Adjustments: WRC Properties, Inc., Lease Number GS-09B-
                              88163, Calendar Years 1990 Through 1996

03/24/97         A72435       Audit of Real Estate Tax Adjustments: WRC Properties, Inc., Lease Number GS-09B-
                              91634, Calendar Years 1993 Through 1996

03/25/97         A70306       Preaward Audit of Architect and Engineering Services Contract: R.G. Vanderweil
                              Engineers, Inc., Solicitation Number GS-01P-95-BZC-0047

04/03/97         A72450       Preaward Audit of a Claim for Increased Costs: Azteca Construction, Inc., Subcontractor
                              to Morse Diesel International, Inc., Contract Number GS-09P-95-KTC-0032

04/04/97         A72437       Audit of Real Estate Tax Adjustments: WRC Properties, Inc., Lease Number GS-09B-
                              91267, Calendar Years 1993 Through 1995

04/04/97         A72436       Audit of Real Estate Tax Adjustments: WRC Properties, Inc., Lease Number GS-09B-
                              90017, Calendar Years 1991 Through 1995

04/18/97         A70628       Postaward Audit of Multiple Award Schedule Contract: Clayton Associates, Inc.,
                              Contract Number GS-07F-8188B, for the Interim Period June 1,1994 Through January 31,
                              1997

04/24/97         A71212       Preaward Audit of Cost and Pricing Proposal: The Logistics Company, Inc., Task Order
                              Request GSC-TFGE-97 -2002

06/06/97         A73619       Preaward Audit of Cost or Pricing Data: Symbiont, Inc., RFP Number GSC-TFGD-97-
                              1010

06/06/97         A72466       Limited Scope Pre award Audit of Proposed Overhead and Direct Labor Rates: Brayton &
                              Hughes Design Studio, Solicitation Number GS-09P-95-KTC-0029




50 Semiannual Report to The Congress
Date of    Audit
Report     Number                                       Title


06/11/97   A61827   Postaward Audit of Multiple Award Schedule Contract: Alexander Manufacturing
                    Company, Contract Number GS-07F-3956A for the Period February 1, 1992 Through
                    October 31, 1995

06/16/97   A70927   Preaward Audit of Cost or Pricing Data: JIL Information Systems, Inc., Proposal No. GSC-
                    TFGD-97-1012

06117/97   A72464   Limited Scope Preaward Audit of Proposed Overhead and Direct Labor Rates: Moore
                    Ruble Yudell, Solicitation Number GS-09P-95-KTC-0029

06/17/97   A72470   Limited Scope Pre award Audit of Proposed Overhead and Direct Labor Rates: Frederick
                    Brown Associates, Solicitation Number GS-09P-95-KTC-0029

06/24/97   A70928   Preaward Audit of Cost or Pricing Data: Criticom, Inc., Solicitation No. GSC-TFGD-97-
                    1014

06/25/97   A72445   Preaward Audit of a Claim for Increased Costs: Morse Diesel International, Inc., Contract
                    Number GS-09P-95-KTC-0032

06/26/97   A72471   Limited Scope Preaward Audit of Proposed Overhead and Direct Labor Rates: Tsuchiyama
                    & Kaino, Inc., Solicitation Number GS-09P-95-KTC-0029

06/26/97   A72465   Preaward Audit of a Claim for Increased Costs: Lawson Mechanical Contractors,
                    Subcontractor to Morse Diesel International, Inc., Contract Number GS-09P-95-KTC-0032

06/27/97   A71811   Audit of Claim for Increased Costs, Miscellaneous Subcontractors to: Morse Diesel
                    International, Inc., Contract Number GS06P94GYC0037

07/11/97   A71533   Preaward Audit of Claim for Increased Costs:       M.A. Mortenson Company, Contract
                    Number GS-05P-93-GBC-0022

07/11/97   A71803   Audit of Claim for Increased Costs: Nicholson Construction Company, Contract Number
                    GS06P94GYC0037

07/22/97   A71804   Audit of Claim for Increased Costs: Rodio/ICOS St. Louis Joint Venture, Subcontractor to
                    Morse Diesel International, Inc., Contract Number GS06P94GYC0037

07/28/97   A70307   Limited Scope Postaward Audit of Multiple Award Schedule Contract: Edward Ochman
                    Systems, Contract Number GS-00F-5350A

07/29/97   A61849   Postaward Audit of Multiple Award Schedule Contract: Hytorc, Division of Unex
                    Corporation, Contract Number GS-06F-77977 for the Period November 1, 1989 Through
                    October 31, 1994

07/30/97   A70644   Preaward Audit of Cost or Pricing Data: Cole Consulting Corp., Subcontractor to Lehrer
                    McGovern Bovis, Inc., Contract Number GS-02P-92-CUC-0028(N)




                                                                                   Office of Inspector General 51
Date of         Audit
Report          Number                                          Title


07/30/97         A71819       Postaward Audit of Commercial Acquisition of Multiple Products Contract: Hytorc of
                              Virginia, Inc., Contract Number GS-06F-78361 for the Period November 1, 1994 Through
                              December 18, 1996

07/31/97         A71820       Audit of Claim for Increased Costs: Morse Diesel International, Inc., Contract Number
                              GS06P94GYC0037

07/31/97         A72467       Limited Scope Preaward Audit of Proposed Overhead and Direct Labor Rates: Peterson
                              Construction Company, Inc., Contract Number GS-08P-96-JFC-0004

08/5/97          A73617       Refund From The Committee For Purchase From People Who Are Blind Or Severely
                              Disabled, Agreement Number GS-02F-61S11

08/14/97         A730n        Preaward Audit of Change Order Proposal: Turner Construction Company, Subcontractor
                              to BPT Metroview Assocs., L.P., Contract Number GS-l1P91AQC0060

08/22/97         A70646       Preaward Audit of a Delay Claim: Beacon/Pro Con Joint Venture, Contract Number GS-
                              02P-94-CUC-0070(N)

08/28/97         A72463       Limited Scope Preaward Audit of Proposed Overhead and Direct Labor Rates: Gruen
                              Associates, Solicitation Number GS-09P-95-KTC-0029

08/29/97         A70645       Preaward Audit of Cost or Pricing Data: Lehrer McGovern Bovis, Inc., Contract Number
                              GS-02P-92-CUC-0028(N)

09/22/97         A70649       Preaward Audit of a Delay Claim: Consolidated Electric, Inc., Subcontractor to
                              Beacon/Pro Con Joint Venture, Contract Number GS-02P-94-CUC-0070(N)

09/24/97         A71526       Price Adjustments on Multiple Award Schedule Contract: Domore Corporation, Contract
                              Number GS-00F-S232A for the Interim Period December 1, 1997 Through January 31,
                              2001

10/02/97         A72478       Audit of Claim for Increased Costs: Gonzales Construction Company, Inc., Contract
                              Number GS-08P-95-JAC-0001

10/03/97         A73031       Preaward Audit of Change Order Proposal: Turner Construction Company, Subcontractor
                              to BPT Metroview Assocs., L.P., Contract Number GS-I1P91AQC0060

10/23/97         A70655       Preaward Audit of a Delay Claim: Demon Plumbing and HVAC, Inc., Subcontractor to
                              Beacon/Pro Con Joint Venture, Contract Number GS-02P-94-CUC-·0070(N)

10/23/97         A72486       Audit of Claim for Increased Costs: Mountain Gravel & Construction Co., Subcontractor
                              to Gonzales Construction Company, Inc., Contract Number GS-08P-95-JAC-0001

10/24/97         A70660       Preaward Audit of a Change Order Proposal: Beacon/Pro Con Joint Venture, Contract
                              Number GS-02P-94-CUC-0070(N)




52 Semiannual Report to The Congress
Date of    Audit
Report     Number                                      Title


11112/97   A70656   Preaward Audit of a Delay Claim: J.e. Higgins Corp., Subcontractor to Beacon/Pro Con
                    Joint Venture, Contract Number GS-02P-94-CUC-0070(N)

11126/97   A22536   Postaward Audit of Multiple Award Schedule Contract: Ingres Corporation, Contract
                    Number GSOOK89AGS5589

11126/97   A32476   Limited Audit of Government Billings: Ingres Corporation, Contract Number
                    GSOOK89AGS5589

12/10/97   A81512   Pre award Audit of a Claim for Increased Costs: Don-Lee, Inc., Subcontractor to D.L.
                    Woods Construction Inc., Contract Number GS05P91GBC0057

12/16/97   A72493   Preaward Audit of a Termination for Convenience Settlement Proposal: Crown Tank
                    Cleaning Services, dba Airo Services, Contract Number GS-1OP-96-LTC-0050

]2122/97   A73606   Audit of Claim for Increased Cost: W.M. Schlosser Company, Inc., Contract Number GS-
                    03P-93-DXC-0044

12124/97   A80602   Preaward Audit of a Delay Claim: Dan Lepore and Sons, Inc., Subcontractor to
                    Beacon/Pro Con Joint Venture, Contract Number GS-02P-94-CUC-0070(N)

01112/98   A80604   Preaward Audit of a Delay Claim: Able Finishing, Inc., Subcontractor to Beacon/Pro Con
                    Joint Venture, Contract Number GS-02P-94-CUC-0070(N)

01112/98   A80608   Preaward Audit of a Delay Claim: Beacon/Pro Con Joint Venture, Contract Number GS-
                    02P-94-CUC-0070(N)

02/05/98   A80609   Preaward Audit of a Delay Claim: The Woodworks Architectural Millwork, Inc.,
                    Subcontractor to Beacon/Pro Con Joint Venture, Contract Number GS-02P-94-CUC-
                    0070(N)

02/09/98   A81522   Preaward Audit of a Claim for Increased Costs: Kirkhoff Mechanical, Inc., Second Tier
                    Subcontractor to D.L. Woods Construction Inc., Contractor Number GS05P91GBC0057

02/11/98   A80607   Pre award Audit of a Claim: Beacon/Pro Con Joint Venture, Contract Number GS-02P-94-
                    CUC-0070(N)

02/23/98   A82418   Preaward Audit of a Claim for Increased Costs: Walters & Wolf, Subcontractor to Hoffman
                    Construction Company of Oregon, Contract Number GS-lOP-94-LTC-0041

02/27/98   A83014   Audit of Claim for Increased Costs: Turner Construction Company, Contract Number GS-
                    IlP91AQC0060

02/27/98   A52155   Postaward Audit of Multiple Award Schedule Contract: Network General Corporation,
                    Contract Number GSOOK92AGS61 09

03/05/98   A80612   Preaward Audit of a Claim: Beckman Construction Company, Contract Number GS-03P··
                    92-CDC-0335


                                                                                 Office of Inspector General 53
Date of          Audit
Report           Number                                        Title


03/17/98         A83016       Preaward Audit of Change Order Proposal: Turner Construction Company, Subcontractor
                              to BPT Metroview Assocs., L.P., Contract Number GS-llP91AQC0060

03/19/98         A81515       Audit of Claim for Increased Costs: Herman B. Taylor Construction Company, Contract
                              Number GS-07P-92-HUC-0017




54 Semiannual Reporl lo The Congress
Date of    Audit                                                                               Projected Final
Report     Number                                                                               Action Date


Internal
03125/96   A53321   FSS' Stock Program Management Information Systems Need to be                  05115/99
                    Improved to Provide More Accurate and Reliable Information

03127/96   A43005   Audit of GSA's Aircraft Management Program                                    05115/99

03/27/96   A62424   Audit of Criminal History Background Checks for Child Care Center             04/15/99
                    Employees

03129/96   A42720   Audit of Accounting and Billing Controls Over the Public Buildings            05115/99
                    Service, National Capital Region's Reimbursable Work Authorizations

08127/96   A62448   Audit of Background Checks on Contractor Personnel                            06/15/99

12/02/96   A63019   Audit of the PAPCAP Price Adjustments                                         06/15/99

01128/97   A63023   Audit of the National Capital Region's Emergency Support Function             05/15/99

02/04/97   A61537   Audit of Postaward Lease Administration: U.S. Bankruptcy Court,               08/15/99
                    Columbus, Ohio, Lease Number GS-05B-15610

03/11197   A60936   Audit of the General Services Administration's Regional Telecommuting         04/15/99
                    Center Initiatives

03126/97   A61247   Review of the Public Buildings Service Debarment Program                      08/15/99

06/10/97   A62709   Arthur Andersen LLP, Fiscal Year 1996 Management Letter Comments              10/15/99
                    and Suggestions for Consideration

07/11/97   A60645   Audit of the Federal Protective Service's Criminal Investigation Program      08115/99

09125/97   A73302   Inventories Can Be Reduced by Using More Accurate and Reliable Data           05/15/99
                    on Economic Order Quantities and Safety Stock

09126/97   A70627   Audit of Real Estate Tax and Janitorial Service Contract Payments             03/15/99

01122/98   A72126   Audit of the Contracting Officer Warrant Program, Region 7                    04/15/99

01123/98   A70302   Management Control Review, Public Buildings Service, Property                 05/15/99
                    Management IMPAC Credit Card Program

01130/98   A72443   Audit of the Megacenter Program, Federal Protective Service, Public           05/15/99
                    Buildings Service

02/11198   A73311   Audil of lhe Accuracy of PBS Relll Billings in GSA Owned and Leased           06/15/99
                    Buildings



                                                                                   Office of Inspector General 55
                                                                              with


Date of           Audit                                                                                 Projected Final
Report            Number                                           Title                                 Action Date


03/30/98           A83007        Follow-up Review of the Contract Workload Management                      12/15/99

03/31/98           A73902        GSA Needs to Prioritize and Accelerate Year 2000 Computer Conversion      10/15/99
                                 Efforts




56 Selllianllual Report to The Congress
The GSA Office of the Chief Financial Officer provided the following information.
                                                                  The ARCS system was enhanced to handle a new type
                                                                  of claim related to the collection of past due industrial
                                                                  funding fees owed by contractors.
During the period October 1, 1998 through March 31,
1999, GSA efforts to improve debt collection and reduce      • In February 1999, an Inspector General audit of the
                                                               Heartland Finance Center's non-Federal claims
the amount of debt written off as uncollectible focused on
                                                               collection process disclosed the center was in
upgrading the collection function and enhancing debt
                                                               compliance with all requirements of the Debt
management. These activities included the following:           Collection Improvement Act. The auditors found the
                                                               center to be a leader in electronically transmitting
G   The GSA Finance Centers continue to refer delinquent       claims to Treasury's Financial Management Service.
    non-Federal claims to the U.S. Department of the
    Treasury (Treasury) for cross-servicing collection       " Persistent claims coordination efforts between regional
    activities. FY 1999 collections on non-Federal claims,     contracting officers, Finance Center personnel, and
    to date, exceed $10 million. Administrative offsets        Treasury claims offset personnel continue to strengthen
    have resulted in an additional collection of $85,000.      our collection efforts. Our Federal debt collections
    GSA also collects non-Federal claims using                 are taking less time, therefore, allowing us to dedicate
    Pre-Authorized Debits (PAD's). From September 30,          more resources to non-Federal collection to improve
                                                               both Federal and non-Federal collections.
    1998 to March 31, 1999, six PAD's were used to collect
    $4,515.
                                                             • We have increased the number and dollar amount of
                                                               billings under the Memorandum of Understanding
• GSA continues to improve its new Accounts                    between the Federal Telecommunications Service and
  Receivable Claims System (ARCS). The use of this             the Defense Finance and Accounting Service. We also
  system will improve tracking, follow-up, referral, and       have increased the collection of outstanding accounts
  reporting of claim functions. ARCS also allows               receivable from the Department of Defense through the
  multiple users to simultaneously access claims data.         manual On-line Payment and Collection system.




                                                     As of                     As of'
                                                 October 1, 1998           March 31,1999                Difference

    Total Amounts Due GSA                           $23,757,957              $28,048,802              $4,290,845

    Amount Delinquent                               $12,375,303              $18,388,523              $6,013,220

    Total Amount Written
    Off as Uncollectible
    Between 10/1/98 and
    3/31/99                                            $305,760




                                                                                               Office of Inspector General 57
The table below cross-references the reporting require-     Report No. 96-829 relative to the 1980 Supplemental
ments prescribed by the Inspector General Act of 1978, as   Appropriations and Rescission Bill and the National
amended, to the specific pages where they are addressed.    Defense     Authorization      Act    is    also  cross-
The information requested by the Congress in Senate         referenced to the appropriate page of the report.



   Requirement                                                                                           Page
   Inspector General Act
      Section 4(a)(2) - Review of Legislation and Regulations ..................................... 28
      Section 5(a)(l) - Significant Problems, Abuses, and Deficiencies .............................. 2,19
      Section 5(a)(2) - Recommendations With Respect to Significant
       Problems, Abuses, and Deficiencies .................................................. 2,19
      Section 5(a)(3) - Prior Recommendations Not Yet Implemented ............................... 37
      Section 5(a)(4) - Matters Referred to Prosecutive Authorities .................................. 33
      Sections 5(a)(5) and 6(b )(2) - Summary ofInstances Where
       Information Was Refused.......................................................... None
      Section 5(a)(6) - List of Audit Reports. . ................................................ .40
      Section 5( a)(7) - Summary of Each Particularly Significant Report. ........................... 2,19
      Section 5(a)(8) - Statistical Tables on Management Decisions on
       Questioned Costs .................................................................. 32
      Section 5(a)(9) - Statistical Tables on Management Decisions on
       Recommendations That Funds Be Put to Better Use ....................................... 31
      Section 5(a)(10) - Summary of Each Audit Report Over 6 Months
       Old for Which No Management Decision Has Been Made ................................ None
      Section 5(a)(11) - Description and Explanation for Any Significant
       Revised Management Decision ... . ................................................. None
      Section 5(a)(l2) - Information on Any Significant Management
       Decisions With Which the Inspector General Disagrees ................................... None
   Senate Report No. 96-829
      Resolution of Audits ................................................................ 30
      Delinquent Debts ................................................................... 57
   National Defense Authorization Act .................................................... .49




58 Semiannual Report to The Congress
                             I
                             III




I




    U.S. General Services Administratian
    Office af the          General
